APPENDIX

1a
APPENDIX A
SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street,
20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185
September 30, 2020
In re: The City of Chicago, etc., respondent,
v. Fred J. Eychaner, petitioner.
Leave to appeal, Appellate Court,
First District. 126079
The Supreme Court today DENIED the Petition for
Leave to Appeal in the above entitled cause.
The mandate of this Court will issue to the Appellate
Court on 11/04/2020.
Anne M. Burke, C.J., took no part.
Neville, J., took no part.
Very truly yours,
/s/ Carolyn Taft Grosboll
Clerk of the Supreme Court

2a
APPENDIX B
2020 IL App (1st) 191053
No. 1-19-1053
Opinion filed May 11, 2020
First Division
IN THE
APPELLATE COURT OF ILLINOIS
FIRST DISTRICT
————
No. 05 L 5792
————
THE CITY OF CHICAGO, a Municipal Corporation,
Plaintiff-Appellee,
v.
FRED J. EYCHANER and UNKNOWN OWNERS,
Defendants
(FRED J. EYCHANER, Defendant-Appellant).
————
Appeal from the Circuit Court of Cook County.
————
Honorable Rita M. Novak and
James M. McGing, Judges, presiding.
————
JUSTICE HYMAN delivered the judgment of the
court, with opinion.
Presiding Justice Griffin and Justice Pierce concurred
in the judgment and opinion.

3a
OPINION
Fred Eychaner again challenges the City of Chicago’s
use of eminent domain to take his property. When the
case was last before us, we upheld the taking, finding
that the City could use eminent domain to take
the property, which lies in a conservation area, to
prevent future blight and to promote economic
redevelopment. City of Chicago v. Eychaner, 2015 IL
App (1st) 131833. We remanded, however, for a new
trial on just compensation. After a jury awarded
Eychaner $7.1 million in just compensation, he filed
a posttrial motion renewing his argument on the
taking’s constitutionality. Eychaner conceded the
binding effect of our decision but sought “to preserve”
the constitutional claim for possible review by the
supreme court. He also moved to reconsider the
denial of his original traverse based on purported
changed circumstances, asserting the City adopted a
new plan for the area so the taking no longer served a
permissible public use.
The trial court denied the motion based on this court
having remanded for the limited purpose of a new trial
on just compensation. As to Eychaner’s invocation of
changed circumstances, the court noted that all the
evidence of purported changed circumstances was
available before the second trial, so Eychaner could
have filed a new traverse or alerted the court to his
claim of changed circumstances. The court also determined that the City’s new plan adhered to the previous
plan’s goals of redeveloping a conservation area to
promote economic revitalization and, thus, the taking
continued to serve a constitutionally permissible
public use.
Eychaner appeals, arguing the City may not use
eminent domain to take property in a conservation

4a
area in the name of economic redevelopment. He also
contends the trial court erred in denying his motion
to reconsider based on the city’s new redevelopment
plan. We affirm. The law-of-the-case doctrine precluded the trial court, and now precludes us, from
reconsidering the denial of Eychaner’s traverse. As to
the reconsideration, we agree with the trial court that
the new plan adheres to the earlier plan so that
the taking still serves a constitutionally permissible
public use, and the trial court did not abuse its
discretion in denying the motion.
Background
We laid out the facts in detail in Eychaner, 2015 IL
App (1st) 131833, and will summarize only the
relevant facts.
Fred Eychaner owned vacant land at the southwest
corner of Grand Avenue and North Jefferson Street in
Chicago. At the end of 1999, the City proposed creating
a planned manufacturing district (PMD) there, aimed
at protecting industrial jobs; preventing residential
encroachment on existing manufacturing facilities;
and encouraging manufacturers to invest, modernize,
and expand their facilities. Residential uses are not
permitted within PMDs. See Chicago Municipal Code
§§ 17-6-0403-C, 17-6-0403-F (amended Sept. 10, 2014).
Blommer Chocolate Company’s (Blommer) factory
stood two blocks south of Eychaner’s property.
Blommer initially opposed its factory’s inclusion in the
PMD, raising concerns that residents of a nearby
planned residential development would find the smell,
noise, and traffic generated by the factory “intolerable.” Blommer proposed two solutions: extending
the PMD further south to provide a buffer between
Blommer and the new residential development or not

5a
including Blommer in the PMD to allow it to sell its
property more easily if conflicts with the residents
forced it to relocate. Blommer also discussed with the
City the possibility of acquiring property to the north
of its factory, which did not include Eychaner’s
property, for a truck staging area.
The City wanted to keep the Blommer factory, and
the City’s plan commission spent months discussing
alternative plans with Blommer to make sure that
happened. Eventually, Blommer dropped its opposition in exchange for the City’s willingness to help
Blommer expand its industrial campus by acquiring
nearby property to “create a buffer” between its operations and the proposed residential development. The
plan commission recommended that the city council
adopt the PMD. It did a few months later.
The City intended to fund the project though the
River West Tax Increment Finance Redevelopment
Plan (River West TIF). The City retained a private
firm that commissioned studies and produced a 68page report about the River West TIF. The report
concluded:
[T]ax-increment financing would induce private investment and arrest blighting factors
in the area. Because the area had not been
subject to growth and reinvestment, the study
reasoned that property owners would not
invest in their properties without taxincrement financing. The study anticipated
benefits, including: (i) stronger economic
vitality; (ii) increased construction and longterm employment opportunities; (iii) replacement of inappropriate uses, blight, and
vacant properties with viable, high-quality
developments; (iv) the elimination of physical

6a
impediments, such as roads in poor condition;
(v) the construction of public improvements to
attract private investment; (vi) job-training
services to make the area more attractive to
investors and employers; and (vii) opportunities for minority- and women-owned businesses to share in the redevelopment.”
Although Eychaner’s property was not deemed
blighted, the study stated that it met the requirements
of a “conservation area” under the Tax Increment
Allocation Redevelopment Act (65 ILCS 5/11-74.4-1 et
seq. (West 2006)) and, as a conservation area, “may
become a blighted area” because of (i) deterioration,
(ii) code violations, (iii) excessive vacancies, (iv) lack of
community planning, and (v) lagging property values
(id. § 11-74.4-3(b)). The City’s community development commission recommended, and the city council
adopted, the plan for the River West TIF.
A few months later, Blommer submitted a redevelopment proposal for its expanded campus. Blommer
proposed acquiring 4.2 acres of land surrounding its
factory, including Eychaner’s land. Initially, Blommer
offered to buy Eychaner’s land, but he refused to sell.
Then the City notified Eychaner of its possible taking
of his property with the intent of conveying it to
Blommer as part of its plan to expand its campus.
After a public hearing, the city council passed an
ordinance authorizing the taking. The ordinance considered the taking necessary to achieve the objectives
of the River West TIF.
Condemnation Proceedings
In August 2005, the City filed a complaint to
condemn Eychaner’s property through eminent
domain. Eventually, the case proceeded to a jury trial

7a
on just compensation. The jury returned a verdict of
$2.5 million. Eychaner appealed, challenging the
denial of his traverse and the compensation award. To
support his argument that the taking was unconstitutional, Eychaner relied primarily on Southwestern Illinois Development Authority v. National City
Environmental, L.L.C., 199 Ill. 2d 225 (2002)
(SWIDA). There, the Illinois Supreme Court invalidated the taking of private property for an adjacent
racetrack’s parking lot that had a “purely private
benefit and lack[ed] a showing of a supporting legislative purpose.” Id. at 240. The SWIDA court held that
the taking had “minimal public benefit” and that the
“true beneficiaries *** are private businesses.” Id. at
239-40.
Our opinion noted that the facts in SWIDA—
significantly, a lack of a parking study or economic
plan—showed it to be a sweetheart deal and that
SWIDA did not intend to benefit the public. Eychaner,
2015 IL App (1st) 131833, ¶ 55. We acknowledged that
“[r]ecognizing the difference between a valid public
use and a sham can be challenging. But a telling
feature of sound public use in the context of economic
redevelopment is the existence of a well-developed,
publicly vetted, and thoughtful economic development
plan.” Id. ¶ 71. That kind of plan was present in Kelo
v. City of New London, 545 U.S. 469 (2005) and People
ex rel. Gutknecht v. City of Chicago, 3 Ill. 2d 539 (1954),
but “absent in SWIDA.” Eychaner, 2015 IL App (1st)
131833, ¶ 71 (“SWIDA did not conduct or commission
a thorough study of the parking situation at [the
racetrack]. Nor did it formulate any economic plan
requiring additional parking at the racetrack.”
(Internal quotation marks omitted.)). Id. ¶ 71.

8a
On the contrary, the plans showed the City considering, in good faith, the taking of Eychaner’s land as
part of a “carefully formulated” economic development
plan that “unquestionably serves a public purpose of
preventing blight, promoting economic revitalization,
and protecting existing industry.” Id. ¶63. We concluded, “the use of eminent domain to expand
Blommer’s campus passes constitutional muster
because it aligns with the goals of the City’s economic
development plan to retain existing industry, prevent
conflicts between residential and industrial use, and
promote investment and revitalization in a conservation area.” Id. ¶78. We also found the trial court erred
in excluding certain evidence and remanded for a new
trial on just compensation. Id. ¶105.
The North Branch Framework
While on remand, the Chicago Plan Commission
undertook a comprehensive review of 26 “industrial
corridors” in the City to “address the modern realities
of the city’s industrial marketplace and its evolving
role within the global economy.” The commission
selected a 760-acre area along the Chicago River, the
North Branch, as the first industrial corridor for
comprehensive review. This area includes Eychaner’s
property and the Bloomer factory. The review process,
dubbed the “North Branch Framework,” sought “to
modernize existing land use regulations in the corridor to more effectively promote economic growth and
job creation through the expansion of existing businesses and the attraction of new businesses, corporate
headquarters and companies that drive Chicago’s
knowledge-based economy.” It proposed allowing
mixed-use development to “maximize[e] the North
Branch as an economic engine and vital job center.”

9a
The North Branch Framework proposed dividing
the corridor into three distinct zones. Eychaner’s
property and the Blommer factory lie in the “South
Sub-Area,” containing a mix of industrial and office
uses and abutting the downtown (D) zoning district
and high-density, mixed-use properties. It proposed
new land use regulations for the South Sub-Area that
would provide for “higher density office; retail and
select residential uses,” while maintaining “[a]t least
50 percent of the corridor’s land *** for employmentoriented development.” To help implement its goals
and principles, the framework recommended replacing
the existing zoning for the South Sub-Area from PMD
to “Downtown Service” (DS). DS zoning does not
permit residential uses. “[E]xisting legal industrial
uses would be permitted to continue without impact,”
and future zoning amendments in the South Sub-area
would be “limited to Downtown Mixed-Use (DX).” DX
includes multistory high-rise residential structures,
which in recent years have become more prevalent in
the area.
To address the possibility that some companies
would decide to expand or relocate, the North Branch
Framework proposed “allocating funding to provide
the appropriate infrastructure and related amenities
to accommodate ongoing shifts as needed.” It recognized the importance of retaining industrial uses
within the City’s overall industrial corridor system
and that “[l]and within the corridors that transitions
to nonmanufacturing uses is a loss to the overall
system and should entail compensation on behalf of
the City’s industrial base.” A special fee to support the
corridor system citywide “will be recommended for
development projects that diminish the amount of
corridor land that is used or designated for industry
and related employment.”

10a
Industrial Corridor System Fund Ordinance
After the plan commission issued its North Branch
Framework, the City Council approved an ordinance
creating an industrial corridor system fund. The ordinance, titled the “Industrial Corridor System Fund
Ordinance,” established “ ‘[c]onversion areas’ ***
within the industrial corridor system identified for
potential zoning and/or other land use changes or
modifications” and “ ‘[r]eceiving corridors,” “in which
the primary sources of jobs are in industrial use
categories.” When property within a “conversion area”
is rezoned, the City collects a “conversion fee.” Industrial users that relocate from conversion areas to
replacement sites in receiving corridors are exempted
from paying the conversion fee to the City.
The ordinance’s purpose was “to mitigate the loss of
industrial land and facilities in conversion areas by
generating funds for investment in receiving corridors
in order to preserve and enhance the city’s industrial
base, support new and expanding industrial uses, and
ensure a stable future for manufacturing and industrial employment in Chicago.” The ordinance created
a “North Branch Industrial Corridor Conversion
Area,” which included the Blommer factory and
Eychaner property, and repealed the PMD zoning and
replaced it with DS zoning.
The Sale of Blommer
Before the second just compensation trial, Fuji Oil
Holdings, Inc. (Fuji), announced it had acquired all
outstanding shares of Blommer for $750 million. Fuji
said it intended to “[e]xpand business in North
America, the largest market in the chocolate industry,” and “maintain the management structure of
[Blommer] with the current management team.”

11a
Second Just Compensation Trial
At the second just compensation trial, the City and
Eychaner presented expert witnesses who agreed that
the highest and best use of the property would be a
multistory high rise residential structure with ancillary commercial use. The property would have to be
rezoned because DS zoning does not permit residential
uses and the owner would have to pay a conversion
fee, which would be used to assist other industrial
properties in the area. The expert witnesses agreed
approval of the zoning change was reasonably
probable.
The jury returned an award to Eychaner of $7.1
million. Eychaner filed a posttrial motion, which did
not challenge the fair compensation award but
renewed his argument that the City’s exercise of
eminent domain in a conservation area in the name of
redevelopment was unconstitutional. Eychaner conceded that the trial court was bound by this court’s
decision but stated that he was “rais[ing] the issue
again in order to preserve it for further judicial review
in higher courts.” Eychaner also sought reconsideration of the denial of his original traverse under section
2-1202(b) of the Code of Civil Procedure (735 ILCS 5/21202(b) (West 2018)), based on changed circumstances. He asserted the taking no longer served a
permissible public use since the City had changed its
plans for the area surrounding Eychaner’s property.
Specifically, Eychaner argued, “without the River
West TIF Plan, there is no valid conservation plan—
or any plan—on which the Blommer redevelopment
project and the taking of defendant’s property is based.
It’s a naked transfer of private property through the
power of eminent domain to benefit a private party—
now Fuji Oil Holdings, Inc. It is a taking for private,

12a
not public use, and is thus barred in Illinois.”
Eychaner wanted the trial court to vacate the judgment entered on the jury verdict and either reverse the
ruling on the traverse or reconsider and reverse that
ruling based on changed circumstances and dismiss
with prejudice.
The trial court denied the motion on the basis of our
having remanded for the limited purpose of a new trial
on just compensation. As to changed circumstances
based on the new plan, the trial court found that, since
all the evidence of purported changed circumstances
was available before the second trial, Eychaner could
have filed a new traverse or alerted the court to his
claim of changed circumstances. The court also held
that the City’s North Branch Framework adhered to
the River West TIF’s goals of redeveloping a conservation area to promote the economic revitalization of
that conservation area and, thus, the taking continued
to serve a constitutionally permissible public use.
Analysis
Eychaner raises two arguments. First, he asserts
the City has no right to take his property and that our
ruling allowing the taking to prevent future blight was
wrong and in conflict with supreme court precedent in
SWIDA. Eychaner asks that we reverse that judgment
and dismiss the eminent domain proceeding with
prejudice. Alternatively, Eychaner contends the trial
court erred in denying his motion to reconsider its
denial of his traverse in light of the City’s new North
Branch Framework and asks that we reverse that
denial and remand so the trial court can reconsider in
light of changed circumstances.

13a
Law-of-the-Case Doctrine
As to Eychaner’s argument that we reverse our
original decision allowing the taking, the parties agree
that the law-of-the-case doctrine applies; Eychaner
asserts he raises the issue to preserve it for review in
the Illinois Supreme Court.
The law-of-the-case doctrine provides that issues
presented and disposed of in an earlier appeal are
binding and will control in the circuit court on remand,
as well as the appellate court in a later appeal, unless
the facts presented differ so much as to require a
different interpretation. Bilut v. Northwestern University, 296 Ill. App. 3d 42, 47 (1998). Absent substantially different facts, a party will not be allowed to
reargue issues already decided by the appellate court.
A dissatisfied party may file a petition for rehearing or
petition for leave to appeal to the supreme court. Id.
(citing Sanders v. Shephard, 258 Ill. App. 3d 626, 633
(1994)).
We addressed the constitutionality of the taking in
Eychaner’s initial appeal and upheld it. Eychaner,
2015 IL App (1st) 131833, ¶ 78. The law-of-the-case
doctrine binds us to that decision, so we affirm.
Because we apply the law-of-the-case doctrine, we do
not address Eychaner’s arguments that our 2015
decision should be reversed.
Denial of Posttrial Motion
Eychaner next contends the trial court erred in
refusing to reconsider its 2006 denial of the traverse
because the North Branch Framework has superseded
the River West TIF, which this court relied on to affirm
the taking. Specifically, Eychaner argues inconsistency exists between the North Branch Framework
and the River West TIF and that the City no longer

14a
intends on preserving industrial uses in the area.
Eychaner adds that the City wants to move industrial
uses out of the area and replace them with multifamily residences. Eychaner contends that, under the
North Branch Framework, the City will relocate
Blommer rather than expand its campus, which
constitutes a taking for private, not public, use. He
considers this new evidence so conclusive that it would
probably change the result on reconsideration of the
denial of the traverse. Eychaner claims the trial court
abused its discretion in ruling on the reconsideration.
We will not reverse a decision to grant or deny a
motion for reconsideration absent an abuse of discretion. Landeros v. Equity Property & Development, 321
Ill. App. 3d 57, 65 (2001). A motion to reconsider brings
to the court’s attention (i) newly discovered evidence
unavailable at the time of the hearing, (ii) changes in
the law, or (iii) errors in the court’s application of the
existing law. O’Connor v. County of Cook, 337 Ill. App.
3d 902, 911 (2003). Illinois courts do not favor posttrial
motions based on newly discovered evidence and
subjects them to close scrutiny. Robbins v. Avara, 28
Ill. App. 3d 292, 295 (1975).
A motion for a new trial based on newly discovered
evidence requires establishing the new evidence be (i)
so conclusive it probably changes the judgment should
a new trial be granted, (ii) discovered after the trial,
(iii) undiscoverable “before trial with the exercise of
due diligence,” (iv) material to the issue, and (v) not
“merely cumulative to the evidence at trial.” Lannert
v. Ramirez, 214 Ill. App. 3d 1102, 1104 (1991).
Timeliness of Motion for Reconsideration
We agree with the trial court that Eychaner did not
meet the elements required to grant a motion for

15a
reconsideration based on newly discovered evidence.
Eychaner met the fourth requirement, as to
materiality. But Eychaner failed to meet the other four
requirements.
First, Eychaner failed to establish that the new
evidence was discovered after trial. He knew of the
“changed circumstances”—the North Branch Framework—before the second just compensation trial and
had ample opportunity to bring the evidence to the
court’s attention. The City first publicly announced its
North Branch Framework recommendations on June
6, 2016, and adopted the implementing ordinance in
July 2017. Fuji publicly announced its acquisition of
Blommer on November 19, 2018. As the trial court
noted, some of the changes brought about by the North
Branch Framework, including zoning changes that
would permit mixed-use residential developments,
had been presented at the just compensation jury trial.
The circumstances plainly had changed; both parties
were aware of it, as was the trial court. If Eychaner
had filed his motion to reconsider beforehand and had
prevailed, the parties and the court would have been
spared the cost and time of conducting what would
have been an irrelevant four-day jury trial on just
compensation. Instead, Eychaner waited until after
the trial to ask the court to again consider the
constitutionality of the taking based on evidence
available well beforehand.
Eychaner contends the trial court should have
looked at whether the new evidence could have been
discovered before the 2006 condemnation hearing
rather than the second just compensation jury trial.
Eychaner cites no cases to support this contention. He
simply asserts that the jury only had jurisdiction over
the just compensation issue and could not have

16a
decided whether the taking was constitutional under
the City’s new North Branch Framework. That
argument fails. The trial judge, not the jury, possesses
the authority to decide the constitutionality of the
taking. See City of Naperville v. Old Second National
Bank of Aurora, 327 Ill. App. 3d 734, 739 (2002) (issues
raised on traverse and motion to dismiss are preliminary questions determined by trial court without
jury). But nothing restrained Eychaner from bringing
a motion to reconsider or for a new traverse based on
the purportedly material change of circumstances, so
the trial judge could have addressed it before the
jury trial on just compensation. Eychaner had opportunity between July 2017, when the City adopted an
implementing ordinance for the North Branch Framework, and December 2018, when the just compensation trial began, to argue that the taking was no longer
constitutional. He remained silent to his detriment.
We also reject the contention that by remanding for
a jury trial on just compensation our mandate
prevented the trial court from reconsidering its denial
of the traverse and motion to dismiss in light of newly
discovered evidence. As the trial court noted, the lawof-the-case doctrine precludes Eychaner from rearguing issues this court decided. Bilut, 296 Ill. App. 3d at
47. But the doctrine applies to issues of fact or matters
concerning claims decided by the appellate court, not
issues of fact or matters concerning claims not decided
by the appellate court. Zokoych v. Spalding, 84 Ill.
App. 3d 661, 667 (1980). When we remanded in 2015,
the city’s North Branch Framework did not exist,
and we could not address whether it affected the
constitutionality of the taking, a question of fact.
Nothing in our remand indicated that the trial court
had to blindly follow our mandate and hold a new jury
trial on just compensation, undeterred by material

17a
new facts that came to light after we ruled. See Bilut,
296 Ill. App. 3d at 47 (despite law-of-the-case doctrine,
dissatisfied party may file petition for rehearing based
on new facts). Thus, Eychaner failed to timely file his
motion to reconsider or show that new evidence was
discovered after trial.
Nor can Eychaner contend the evidence was undiscoverable before the just compensation trial with the
exercise of due diligence. The evidence of changed circumstances, as we have said, was known to Eychaner
before trial and partly presented to the jury. Thus, he
failed to satisfy the third and fifth Lannert
requirements.
Changed Circumstances Did Not Warrant Reversal
Even if Eychaner could meet the other Lannert
requirements, he failed to demonstrate the new evidence would change the outcome. Eychaner notes that
our decision affirming the trial court’s denial of his
traverse relied primarily on the City’s River West TIF,
which showed (i) the City had a “carefully formulated”
economic development plan and (ii) the taking
“unquestionably serves a public purpose of preventing
blight, promoting economic revitalization, and protecting existing industry.” Eychaner, 2015 IL App (1st)
131833 ¶ 63. Eychaner asserts that the City’s decision
to adopt the new North Branch Framework supersedes the River West TIF; in other words, the taking
is no longer supported by the City’s current economic
development plan, and so it is nothing more than a
naked transfer from Eychaner to Blommer in the
name of economic development.
The North Branch Framework, however, is not the
sole expression of the City’s plan, and it does not
supersede the River West TIF, which remains in

18a
effect. The River West TIF was enacted by an ordinance that remains in effect, by its own terms, until
2024. Eychaner relies on what he deems “express
language in the North Branch Framework stating that
all prior plans are superseded.” But he either purposely or erroneously misstates the language; it has
nothing to do with the River West TIF. The North
Branch Framework states, “At least seven plans and
studies have been completed since 2010 that provide
recommendations which are relevant to the North
Branch Industrial Corridor and its surrounding
areas.” It then identifies those specific seven plans.
None involve the River West TIF plan.
Moreover, the North Branch Framework and the
River West TIF plan together carry out the purpose of
promoting the economic revitalization of a conservation area. As the North Branch Framework states, its
primary goal is to “maintain the north branch
industrial corridor as an important economic engine
and vital job center within the city of Chicago.” It does
so by “moderniz[ing] existing land use regulations in
the corridor to more effectively promote economic
growth and job creation through the expansion of
existing businesses and the attraction of new businesses, corporate headquarters and companies that
drive Chicago’s knowledge-based economy,” a goal
consistent with that of the River West TIF to promote
economic revitalization and protect existing industry.
Further, the area around Eychaner’s property continues to qualify under the TIF Act as a conservation
area that runs the risk of blighting without intervention by the City. And, as we held, the City “may use
the power of eminent domain to prevent future blight
in a conservation area such as the River West TIF.” Id.
¶ 69. The City’s decision to change the zoning to allow

19a
broader economic redevelopment beyond strict industrial uses does not render the plans unconstitutional.
As we held, “[t]he goals of the River West TIF—to
reduce blighting factors, prevent blight, foster the
City’s industrial base, prevent conflicts between
residential and industrial uses, and retain existing
industry—all constitute valid public uses.” Id. ¶ 75.
The City’s current plan to redevelop the conservation
area around Eychaner’s property seeks to “preserve
the industrial character of the corridor while also
attracting innovation and technology-oriented businesses,” a valid public use.
Eychaner relies on Village of Skokie v. Gianoulis,
260 Ill. App. 3d 287 (1994), to argue that the taking
was an abuse of the City’s eminent domain power. In
Gianoulis, the appellate court invalidated a taking by
the Village of Skokie because the defendant’s properties had not been included in the Village’s original
planning study or in the ordinance that originally
authorized the use of eminent domain as part of a
redevelopment plan. Id. at 296. Later, when a developer contacted the Village about an unsuccessful
attempt at privately purchasing the property, the
Village passed an ordinance retroactively redefining
the redevelopment project area to include the defendants’ properties. Id. This court held that the Village
lacked authority to take the properties and abused its
power because the properties had not been part of the
redevelopment project area identified in the ordinance
authorizing the use of eminent domain and “[the
Village] cannot merely pass an ordinance and state
therein that the lots are now included in the study and
the plan.” Id. at 297.
Eychaner contends that, as in Gianoulis, the City’s
decision to adopt the North Branch Framework

20a
constituted a change in policy, approach, and planning: from conserving existing industrial uses to
relocating and replacing them with residential and
commercial uses. We disagree. Unlike the defendants
in Gianoulis, Eychaner’s property has always been
within the conservation area identified by the River
West TIF; the City has always planned for the area’s
economic redevelopment area. As the trial court stated
in distinguishing Gianoulis, “[h]ere there was a broad
redevelopment plan implemented prior to the initial
taking, and there was a broad redevelopment plan
implemented at the time of the second trial. Changed
circumstances in the manner of new developments in
the subject area, which warranted the City conduct a
new comprehensive study to determine what zoning
best would promote its intention of economic
revitalization of the conservation area bolsters its
public purpose, rather than show an abuse of power.”
See id.
Also, Eychaner presented no evidence of changes to
the plan. Instead, he asserts the City’s current plan no
longer supports the taking. Not so. Residential uses
remain prohibited under the current zoning, though
the zoning went from PMD to DS. And Eychaner cites
no evidence that Blommer or Fuji intends to use the
property for a residential purpose or a use inconsistent
with the redevelopment agreement or the River West
TIF goals. Indeed, Eychaner acknowledges that both
the plans for the property to become part of Blommer
factory and the Blommer redevelopment agreement
remain unchanged.
Further, the City’s decision to create a fund to pay
industrial businesses to relocate out of the area
supports the goal of the River West TIF by reducing
conflicts between residential and industrial uses.

21a
Acquiring Eychaner’s property has been to allow
Blommer to expand into a self-enclosed campus,
thereby reducing conflicts with neighboring uses,
continuing operations, and maintaining its workforce
within the City—all part of the City’s larger plan to
redevelop and ensure the economic vitality of the area.
The City’s plans under the River West TIF, the
redevelopment agreement, and the North Branch
Framework continue to “carry out the same purpose
of promoting ‘the economic revitalization of a conservation area.” Thus, the trial court did not abuse its
discretion in denying the motion to reconsider.
Affirmed.

22a
No. 1-19-1053
Cite as:

City of Chicago v. Eychaner, 2020 IL
App (1st) 191053

Appeal from the Circuit Court of
Decision Under Cook County, No. 05-L-5792; the
Review:
Hon. Rita M. Novak and the Hon.
James M. McGing, Judges, presiding.
Attorneys for
Appellant:

Thomas
F.
Geselbracht
and
Elizabeth L. Butler, of DLA Piper
LLP (US), of Chicago, for appellant.

Attorneys for
Appellee:

Mark A. Flessner, Corporation
Counsel, of Chicago (Benna Ruth
Solomon, Myriam Zreczny Kasper,
and Justin A. Houppert, Assistant
Corporation Counsel, of counsel), for
appellee.

23a
APPENDIX C
IN THE CIRCUIT COURT OF COOK COUNTY,
ILLINOIS COUNTY DEPARTMENT
LAW DIVISION
————
PROJECT: RIVER WEST TIF
Case No. 05 L 050792
Calendar: 2
Parcel BC-1
————
CITY OF CHICAGO, a municipal corporation,
Plaintiff,
vs.
FRED J. EYCHANER and UNKNOWN OWNERS,
Defendants.
————
FINAL JUDGMENT ORDER
THIS MATTER COMING ON TO BE HEARD upon
the complaint for condemnation, as amended, of Plaintiff, THE CITY OF CHICAGO, a municipal corporation, for the ascertainment of the just compensation to
be made for the taking by Plaintiff for the uses and
purposes stated and set forth in its complaint, as
amended, of the fee simple title to the real property
identified in said complaint, as amended, as Parcel
BC-1 and legally described in said complaint and the
attached Exhibit A, and the Plaintiff, appearing by its
attorneys, Lisa Misher, Deputy Corporation Counsel,
Lenny D. Asaro of Dinsmore & Shohl LLP, Special
Assistant Corporation Counsel, and Charlotte Huffman
of Neal & Leroy, LLC, Special Assistant Corporation

24a
Counsel; Defendant Fred J. Eychaner, appearing by
his attorneys, Thomas Geselbracht and Elizabeth
Butler of DLA Piper;
And it appearing to the Court that all parties
defendant herein have been served with process in the
matter and form as provided for by statute or have
duly entered their appearances;
And the Court having jurisdiction of all the parties
to this suit and the subject matter thereof, and all
parties interested being before the Court, and the
Court being fully advised in the premises and having
ordered that a separate trial be had as to the real
property described in the complaint, as amended, as
Parcel BC-1, it was ordered that a jury be selected,
examined and sworn to ascertain and report the just
compensation to be made to the owner or owners of
and party or parties interested in the property sought
to be taken by these proceedings, according to the facts
in the case as they have been made to appear from the
evidence, and the jury, having heard the evidence
adduced herein, the arguments of counsel, and
instructions from the Court, brought in their verdict
on December 18, 2018, in the amount of SEVEN
MILLION ONE HUNDRED THOUSAND DOLLARS
AND 00/100 ($7,100,000.00).
Whereupon the parties move for judgment on said
verdict and all persons interested being before the
Court, and the Court being fully advised in the
premises;
IT IS HEREBY ORDERED AND ADJUDGED
that the sum of money awarded by the jury in and by
their verdict to the owner or owners of and party or
parties interested in said real property described in
the complaint filed herein, as amended, is just com-

25a
pensation for the taking of the fee simple title to said
real property described as Parcel BC-1, and judgment
is herein entered accordingly.
IT IS HEREBY ORDERED AND ADJUDGED that
Plaintiff, within one hundred eleven (111) days from
the date of entry of this order, shall deposit with the
Treasurer of Cook County, Illinois, for the benefit of
the owner or owners of and party or parties interested
in Parcel BC-1 the sum of SEVEN MILLION ONE
HUNDRED THOUSAND DOLLARS AND 00/100
($7,100,000.00) plus statutory interest on said sum
from December 18, 2018, until the date of deposit of
said sum with the Treasurer of Cook County, Illinois,
as full compensation for the taking of the fee simple
title to said real property identified as Parcel BC-1.
IT IS FURTHER ORDERED AND ADJUDGED that
upon said deposit to the Treasurer of Cook County,
Illinois, Plaintiff may enter in and upon Parcel BC-1
and use the same for its uses and purposes.
DATE: December 26, 2018
ENTERED: [STAMP]
Judge James M. McGing
DEC 26 2018
Circuit Court – 1926
/s/ James M. McGing
JUDGE

26a
The foregoing Final Judgment Order is agreed to in
form, without either party waiving its post-judgment
rights under 735 ILCS 5/2-1202 and/or Illinois Supreme
Court Rule 303.
CITY OF CHICAGO
FRED EYCHANER
By: /s/ [Illegible]
By:/s/ illegible
One of Its Attorneys
One of Its Attorneys
Lisa Misher, Deputy
Thomas F. Geselbracht
Elizabeth Butler
Corporation Counsel
CITY OF CHICAGO
Ben Jacobs
121 N. LaSalle Street
DLA PIPER LLP (US) —
43034
Room 600
Chicago, IL 60602
444 West Lake Street
(312) 742-3932
Suite 900
Chicago, Illinois 60606
Lenny D. Asaro, Special
(312) 368-4094
Assistant Corporation
Counsel
DINSMORE & SHOHL LLP
227 W. Monroe Street,
Suite 3850
Chicago, IL 60606
(312) 428-2724
Firm No. 58012
Langdon D. Neal,
Special Assistant
Corporation Counsel
Charlotte M. Huffman,
Special Assistant
Corporation Counsel
NEAL & LEROY, LLC
20 S. Clark, Suite 2050
Chicago, Illinois 60603
(312) 641-7144
Firm No. 41560

27a
APPENDIX D
————
IN THE APPELLATE COURT
OF ILLINOIS FIRST DISTRICT
————
2015 IL App (1st) 131833
No. 1-13-1833
Opinion filed January 21, 2015
Third Division
————
THE CITY OF CHICAGO, a Municipal Corporation,
Plaintiff-Appellee,
v.
FRED J. EYCHANER,
Defendant-Appellant
(Unknown Others, Defendants).
————
Appeal from the Circuit Court of Cook County.
No. 05 L 050792
The Honorable Rita M. Novak &
Margaret A. Brennan, Judges, presiding.
————
JUSTICE HYMAN delivered the judgment of the
court, with opinion.
Presiding Justice Pucinski and Justice
concurred in the judgment and opinion.

Lavin

28a
OPINION
The plaintiff City of Chicago (City) exercised its
power of eminent domain to take defendant Fred
Eychaner’s property and transfer it to the Blommer
Chocolate Company. Eychaner filed a traverse and
motion to dismiss, challenging the taking as unconstitutional, which the trial court denied. After a trial
on just compensation, a jury valued Eychaner’s land
at $2.5 million.
Eychaner appeals, arguing: (i) the City may not use
eminent domain to take property in a conservation
area in the name of economic redeveloment; (ii) the
trial court should have granted Eychaner’s motion in
limine to bar reference to the property’s planned
manufacturing district (PMD) zoning; (iii) the trial
court erred in excluding evidence of how and why the
City included Eychaner’s land in the PMD because it
was relevant to the issue of whether there was a
reasonable probability of rezoning; (iv) the City should
not have been allowed to add new appraisers that
Eychaner had originally retained; (v) the trial court
should have allowed appraiser Michael MaRous to
testify regarding his opinion that there was a reasonable probability of rezoning; (vi) the trial court should
have stricken MaRous’s testimony for violating the
court’s in limine order when he identified Eychaner as
his original employer; and (vii) the jury’s $2.5 million
verdict was the result of a mistaken belief that there
was no reasonable probablility of rezoning.
We affirm in part and reverse in part, holding: (i)
under long-standing precedent, the City may use
eminent domain to take property in a conservation
area to prevent future blight; (ii) the trial court erred
in refusing to exclude reference to the land’s PMD
zoning, and having so held, (iii) we decline to address

29a
the relevancy of how and why the PMD zoning came
about; (iv) Eychaner was not prejudiced when the City
chose to call witnesses he had formerly retained but
had chosen not to call at trial; (v) the trial court erred
in limiting MaRous’s testimony; and (vi) because of the
trial court’s curative instruction, no prejudice arose
from MaRous’s identifying Eychaner as his original
employer. Accordingly, we reverse and remand for a
new trial on just compensation.
BACKGROUND
Eychaner’s Property and Rezoning to PMD
Eychaner owned vacant land at the southwest
corner of West Grand Avenue and North Jefferson
Street (labeled “Eychaner’s Land,” infra figure 1). Two
blocks south of Eychaner’s land stood the Blommer
Chocolate Company’s Chicago factory at the corner of
North DesPlaines Street and West Kinzie Street
(labeled “Blommer’s Factory”, infra figure 1).

30a

Figure 1.
At the end of 1999, the City proposed the creation of
a PMD in the Chicago-Halsted corridor (shaded
area in the map, infra figure 2, “Eychaner” and
“Blommer” labels added), aimed at protecting the
2,800 industrial jobs located in the area, preventing
residential encroachment on the existing manufacturing facilities, and encouraging manufacturers to invest
in their facilities.

31a

Figure 2.
The City’s municipal code lists five goals behind the
creation of PMDs, to: (i) “foster the city’s industrial
base”; (ii) “maintain the city’s diversified economy for
the general welfare of its citizens”; (iii) “strengthen
existing manufacturing areas that are suitable in size,
location and character and which the City Council
deems may benefit from designation as a PMD”; (iv)

32a
“encourage industrial investment, modernization, and
expansion by providing for stable and predictable
industrial environments”; and (v) “help plan and direct
programs and initiatives to promote growth and development of the city’s industrial employment base.”
Chicago Municipal Code § 17-6-0401-A (amended
Sept. 10, 2014). Residential uses are not permitted
within PMDs. See Chicago Municipal Code §§ 17-60403-C, 17-6-0403-F (amended Sept. 10, 2014).
The proposed area for the PMD contained nine
industrial firms, including the Blommer Chocolate
Company’s factory, which was located at the southern
most part of the PMD. In January 2000, the City held
a public meeting regarding the PMD. At the meeting,
the area’s Alderman noted that there had been
increasing conflicts between the residential tenants
and the area’s existing industry, including complaints
about heavy truck traffic at all hours of the day. At the
meeting, the City also mentioned that, later in the
year, it would conduct an eligibility study for the
creation of a tax-incremental financing (TIF) district
under the Tax Increment Allocation Redevelopment
Act. 65 ILCS 5/11-74.41 et seq. (West 2004). At the
meeting, the City described Eychaner’s land as one of
the “two largest sites [in the proposed PMD] that
aren’t being used as the present time,” and a potential
development site.
Blommer also attended the January 2000 meeting
and raised concerns about a proposed residential
development by CMC Heartland on the other side
Kinzie Street, just south of Blommer’s factory and just
outside the proposed boundaries of the PMD. Blommer
noted that there was no buffer zone between itself and
the proposed residential development, creating a
potential for conflict.

33a
In February 2000, Blommer wrote a letter to the
City, objecting to its inclusion in the PMD. Blommer’s
letter noted that “the purpose of the PMD was to
protect manufacturing businesses from residential
development,” but the inclusion of Bloomer did not
fulfill that purpose. Blommer did not show any
interest in Eychaner’s land in the letter.
Blommer primarily objected to its inclusion in the
PMD because “the vacant land directly South of
Blommer [was] scheduled for massive residential
development by CMC. Unless the boundary of the
PMD was extended to include the CMC property
(South of Kinzie and North of the railroad track), there
would be no buffer between the heavy industrial use of
Blommer’s property and the residential development
being proposed by CMC.” Blommer took the position
that “rather than fight the CMC development, it would
be more productive to work together with CMC to find
ways to make Blommer’s operation more compatible to
neighboring residential usage.” Citing three sources of
conflict—smell, noise, and traffic—Blommer noted
that it had already made plans to minimize complaints
about the smell of cocoa bean roasting and plant noise.
As to traffic, Blommer, working with the CMC, wanted
to acquire the vacant land and parking lot to the east
of its factory to use as a staging area for trucks, and
alleviate truck congestion on DesPlaines and Kinzie
Streets. Blommer also proposed vacating the sections
of Hubbard and Jefferson Streets adjacent to its plant.
But even with its plan to reduce the smell, noise,
and traffic associated with its operation, Blommer
raised the specter that residents would still find its
manufacturing operations “intolerable.” If that were
the case, the best solution for Blommer would be to
relocate, and if forced to move, Blommer noted, “it is

34a
hard to imagine another manufacturing concern would
be interested in buying our property only to inherit our
neighborhood problems.” Blommer concluded that, if it
were forced to sell, “not being included in the PMD
would provide us with some flexibility in finding
another use for the property.”
The City’s plan commission held another meeting on
the PMD in March 2000. There, a representative from
the City’s department of planning and development
noted that the PMD would send a message to developers that this area was to remain primarily
industrial and commercial, and that the PMD would
prevent residential development on vacant parcels
within its boundaries. At that meeting, Blommer
opposed its inclusion in the PMD, repeating the
reasons stated in its February 2000 letter. Blommer
proposed two solutions: expand the PMD to extend
south of Kinzie Street, preventing the residential
development, or exclude Blommer from the PMD so
that it could sell its land if conflicts arose with the
future residents. Members of the Plan Commission
expressed a desire to keep Blommer in Chicago. In
light of Blommer’s and others’ objections, the Plan
Commission deferred voting to approve the PMD.
In late March 2000, Blommer met with the City
regarding its concerns about its inclusion in the PMD.
To minimize the impact of nearby residential development, Blommer asked the City to assist it in
increasing the size of its industrial campus to create
more places for off-street truck staging. Blommer
proposed acquiring the land to the north and east
of its current factory, and then walling off the
expanded campus. This expansion would mitigate
neighbors’ complaints about noise and trucks. Drawings of Blommer’s proposed expansion did not include

35a
Eychaner’s land (outlined below, infra figure 3,
“Eychaner” label added). At the meeting, the City
noted that it was conducting an eligibility study for a
tax increment financing district, and that Blommer
could use the financing to acquire land for its
expansion and improve the infrastructure.

Figure 3.
In, April 2000, the commissioner of the City’s Plan
Commission wrote a letter to Blommer expressing

36a
“[w]e are committed to keeping quality manufacturing
firms, such as [Blommer] in the City. To that end, we
are very interested in helping your create a larger
‘industrial campus’ as a means to internalize your
loading operations, limit traffic impacts on adjacent
streets, and provide room to expand.” The commissioner wrote that the Plan Commission would: (i) work
on the possibility of closing parts of Hubbard Street
and Jefferson Street; (ii) pursue the creation of a taxincrement finance district to finance public infrastructure improvements and “any potential acquisitions,” which now included Eychaner’s land; and (iii)
defer approval of residential development south of
Blommer’s plant “to explore design, use and density
issues.” The PMD, the commissioner noted, would
“ensure that properties to the north and east of
[Blommer’s] factory are not developed for residential
use,” and also made clear that Blommer’s “public
support for this action [was] crucial in getting this
measure through the legislative process.”
In May 2000, Blommer commissioned an architect
to draw up a site plan for its expanded campus. That
plan included Eychaner’s land (infra figure 4,
“Eychaner” and “Blommer” labels added). In June
2000, Blommer wrote another letter to the commissioner of the City’s Plan Commission, summarizing its
position on the PMD and CMC’s proposed residential
development south of Kinzie Street. Blommer laid out
the plan for its expanded industrial campus, outlining
a nine-step process for the expansion, including: (i) the
City, Blommer, and CMC would execute a redevelopment agreement; (ii) the City would acquire three
parcels of land, one of which Eychaner owned, that the
City would then transfer to Blommer for $1; and (iii)
the City would put in place a tax-increment finance
district to help fund the expansion. Blommer also

37a
noted that “[a] binding Redevelopment Agreement
would have to be approved by the City and fully
executed before Blommer could fully support the PMD
and the rezoning of the CMC development” for
residential use.
Blommer’s position did not sit well with the City. In
a July 2000 memorandum to the mayor, the City wrote
that “Blommers seems to be negotiating as if they have
us over [a] barrel.” The memorandum recommended
proceeding with the creation of the PMD while continuing to negotiate with Blommer, also noting,
“Blommer’s will go public with its concerns. The only
other option is to change the boundaries to exclude
them. That will create a slippery slope for all the
others who want out of the PMD.”
In August 2000, the Plan Commission held another
meeting. At the meeting, in an effort to minimize
conflicts between its future residents and Blommer,
CMC Heartland proposed a 1-acre, 25-foot setback
for its residential development on Kinzie Street.
Blommer withdrew its opposition to its inclusion in the
PMD based on the City’s willingness to help expand
Blommer’s industrial campus and “create a buffer”
between its operations and CMC’s proposed residential development. In expanding the industrial campus,
Blommer could move its truck staging off of DesPlains
and Kinzie, alleviating complaints about traffic and
noise. The Plan Commission recommended the city
council approve the PMD.
In September 2000, the City Council passed an
ordinance adopting the PMD. The City made five
findings. First, it is City policy to “foster the growth of
the City’s manufacturing and commercial base to
maintain a diversified economy.” Second, the City “is
committed to the retention of exiting manufacturing

38a
and commercial firms and the development of modern
facilities.” Third, the area designated as the PMD is
“directly adjacent to the North Branch industrial’
Corridor and shares many of the corridor’s industrial
characteristics. Fourth, the proposed PMD has “an
active manufacturing and commercial base, expansion
opportunities, excellent locational advantages and
sufficient infrastructure. Fifth, “[c]ontinued manufacturing and commercial investment, modernization and
expansion depends on a stable and predictable landuse environment.” The ordinance then lists the purpose of the PMD as intending “to accommodate
manufacturing, commercial and entertainment uses
with an emphasis on office, night-time entertainment,
high tech service and sales, arts-oriented retail and
the retention/expansion of existing manufacturing and
distribution facilities.”
That same month, the City’s community development commission accepted for review the proposed
plan for the River West Tax Increment Financing
Redevelopment Project Area (River West TIF). The
proposed plan encompassed land on the west side
of the Chicago River (outlined in picture, infra figure
5, “Eychaner” and “Blommer” labels added), and
included both Blommer’s factory and Eychaner’s land.
It also included part, but not all, of the PMD (both
areas mapped, supra figure 2).

39a

Figure 5.
As a part of the plan for the proposed River West
TIF, the City retained a private firm that conducted
an eligibility study and drafted a 68-page report. The
proposed plan sought “to respon[d] to a number of
problems and needs within the [River West TIF]
Project Area, and *** to maintain and revitalize the

40a
Project Area as a viable support area for” the Loop.
The study noted that the areas around Chicago’s Loop
“are currently enjoying a residential renaissance as thousands of new and returning
residents discover the convenience and
vibrancy of living downtown. To satisfy the
demand for new housing units, developers
have begun rehabilitating old industrial
buildings and constructing new residential
buildings around the Project Area. The inherent incompatibility between new residents
and existing industry and commercial businesses can force these industries and commercial businesses out of the area. The rise in
land values and property taxes, the incentive
to sell to high-bidding residential developers,
and the increase in complaints from neighboring residential developments, all work to
push industrial and commercial users out.
The City of Chicago has recognized, however, that it is critical to the overall land-use
balance, and to the employment and tax
base of the City, to protect and enhance the
remaining industrial areas already in proximity to the Loop.”
In support of these policies, the report notes that the
City created the Chicago-Halsted PMD, and that the
River West TIF is one of the City’s tools that “is
intended to provide the financial mechanism necessary to implement the goals and objective of the PMD.
Regarding the PMD, the River West TIF study
described the need for buffer zones between industrial
and residential uses to “limit off-site impacts such as
noise and vibration” and “to prevent conflicts between

41a
incompatible uses.” It also noted that “demand for new
or additional facilities by existing industry is expected
to become important in the future.”
The proposed area for the River West TIF consisted
of 124 acres with 103 buildings and 105 vacant or
parking lot parcels. The usage within the River West
TIF included: 15.1% industrial, 7.8% commercial, 1.4%
mixed-use residential, and 0.7% multi-family residential. The remaining uses fell into the categories of
institutional, parking, vacant, railroad, and other
right-of-way.
The study found that tax-increment financing would
induce private investment and arrest blighting factors
in the area. Because the area had not been subject to
growth and reinvestment, the study reasoned that
property owners would not invest in their properties
without tax-increment financing. The study anticipated benefits, including: (i) stronger economic
vitality; (ii) increased construction and long-term
employment opportunities; (iii) replacement of inappropriate uses, blight, and vacant properties with
viable, high-quality developments; (iv) the elimination
of physical impediments, such as roads in
poor condition; (v) the construction of public improvements to attract private investment; (vi) job-training
services to make the area more attractive to investors
and employers; and (vii) opportunities for minorityand women-owned businesses to share in the
redevelopment.
The study also documented the conditions of the
buildings within the area. According to the study, 88%
of the buildings were 35 years old or older, and the
area met the statutory definitions for the following
blighting factors: deterioration, code violations, excessive vacancies, lack of community planning, and

42a
lagging property values. The proposed plan concluded
that it met the requirements of a “conservation area”
under the Tax Increment Allocation Redevelopment
Act (65 ILCS 5/11-74.4-1 et seq. (West 2004)).
Moreover, the study set forth several goals and
objectives for the River West TIF, including: (i) “reduction or elimination of those conditions which qualify
the Project Area as a conservation area”; (ii) “provision
of sound economic development in the Project Area,
particularly by strengthening the viability, function,
and cohesiveness of industrial and commercial development”; (iii) employment of local residents; (iv) the
creation of strong public-private partnerships; (v)
improved utilities, roadways, transit facilities, and
infrastructure; (vi) improved quality of life in the City;
(vii) fostering an environment to benefit the health,
safety, and general welfare of City residents, and that
will enhance property values and stimulate private
investment; and (viii) the preservation of historic
buildings.
The study lists 15 strategies to induce redevelopment: (i) encouraging “maintenance and expansion of
sound and viable industrial and commercial uses in
appropriate locations;” (ii) permitting “residential
development only where such development imposes
the minimum adverse impact upon the existing
industrial and commercial base”; (iii) rehabilitating
and modernizating existing industrial and commercial
structures for continued use; (iv) assembling parcels
into shapes appropriate for modern development; (v)
upgrading infrastructure; (vi) create buffers between
incompatible uses; (vii) recruiting new enterprises to
fill vacant structures; (viii) studying existing and
future traffic conditions; (ix) improving parking; (x)
enhancing visual character with building rehabilita-

43a
tion and right-of-way improvements; (xi) undertaking
environmental rehabilitation; (xii) preventing any
adverse environmental impact to the Chicago River;
(xiii) promoting energy efficient development; (xiv)
establishing job-readiness and job-training programs
and having area employers commit to interviewing
those trainees; and (xv) providing opportunities for
women- and minority-owned businesses.
The River West TIF plan cited one parcel of land for
acquisition by the City under the Act, but this was not
Eychaner’s land. The total estimated redevelopment
costs for the River West TIF were $150 million. The
estimated date of completion of the redevelopment
project was “no later than December 31, 2023.”
In January 2001, the Community Development
Commission recommended the City Council adopt the
plan for the River West TIF. The City Council passed
an ordinance that adopted the River West TIF plan
soon thereafter, finding that, as a conservation area,
the area “may become a blighted area.”
In May 2001, Blommer submitted a redevelopment
proposal to the City regarding its expanded campus.
Blommer proposed acquiring 4.2 acres of land
surrounding it factory, which included Eychaner’s
land. Its proposal noted that Blommer’s expanded
campus would create and retain jobs at its plant,
increase tax revenue for the City, ensure that Blommer
stayed in Chicago, and create a “buffer zone” between
Blommer’s factory and residential development.
In February 2002, Blommer offered to purchase
Eychaner’s land for $824,980. Eychaner refused to
sell. In April 2002, the City notified Eychaner that it
was considering taking his property. The City’s
Community Development Commission held a public

44a
meeting regarding the proposed taking in May 2002.
Eychaner’s counsel attended the meeting and objected
to the City’s actions. The commission nevertheless
recommended acquiring Eychaner’s and others’ property via eminent domain. In June 2002, the City
Council passed an ordinance authorizing the taking of
Eychaner’s land, finding the taking necessary to
achieve the objectives of the River West TIF plan,
noting “[t]he Plan and the use of tax increment financing provide a mechanism to support new growth
through leveraging private investment, and helping to
finance land acquisition, demolition, remediation, site
preparation and infrastructure for new development
in the Area.”
In February 2006, the City Council passed an
ordinance appointing Blommer as the project developer for the acquired properties and authorizing a
redevelopment agreement between Blommer and the
City.
Condemnation Proceedings
In August 2005, the City filed a complaint to
condemn Eychaner’s property through eminent
domain. In January 2006, Eychaner filed a traverse
and motion to dismiss, arguing that the City’s exercise
of eminent domain was prima facie unconstitutional
and that the trial court should dismiss the complaint.
The trial court denied Eychaner’s traverse in
August 2006. On Eychaner’s motion, the trial judge
certified that order for interlocutory appeal on the
question of whether the City could use its eminent
domain powers to take property that is neither
blighted nor a slum and give to a private party in the
name of economic redevelopment. This court denied
Eychaner’s petition for leave to appeal, and remanded

45a
the case, which proceeded to a jury trial on just
compensation.
Before trial, Eychaner moved in limine to bar
reference to the land’s PMD zoning. Eychaner argued
that under the “project influence rule,” the valuation
should not take into account the PMD zoning. The trial
judge denied that motion. The City filed a motion in
limine to bar evidence that it intends to transfer the
land to Blommer, which the trial court granted.
Eychaner disclosed four expert witnesses under
Illinois Supreme Court Rule 213(f)(3) (eff. Jan. 1,
2007): Joseph Thouvenell, Michael MaRous, Allen
Kracower, and Dale Kleszynski. But in his witness list
before trial, Eychaner decided not to call two of his
experts: MaRous and Thouvenell. The City then supplemented its Rule 213(f) disclosures to add MaRous
and Thouvenell as its own witnesses. Eychaner moved
to strike those disclosures as untimely, which the
trial court denied. The City then moved in limine to
bar Eychaner from cross-examining his abandoned
witnesses on opinions the City did not elicit on direct
examination, which the trial court granted. It also
granted Eychaner’s motion in limine to bar evidence
that he previously retained MaRous and Thouvenell.
At trial, during the City’s case-in-chief, it called
three real estate appraisal expert witnesses. First,
Kathy Dart opined rezoning was not a reasonable
probability. She based this conclusion on Chicago’s 13
PMDs, not one of which has a residential use in it. No
one has rezoned any land in a PMD for residential use.
They are strictly industrial and commercial areas. She
also noted that residential use would not meet the
objectives of a PMD. Dart stated that the highest and
best use of the land was for light industrial and
commercial uses, consistent with the PMD zoning.

46a
Dart appraised the property at $1.53 million. Another
appraiser, James Gibbons, testified similarly: that it
was not reasonably probable to assume that land
in a PMD could be rezoned for residential use. He
appraised Eychaner’s land at $1.4 million.
The City then called MaRous, who did not testify
whether there was a reasonable probability of
rezoning, but valued the land at $2.55 million
assuming the land’s PMD zoning, which he described
on cross examination as an “extraordinary assumption.” MaRous also testified as follows on redirect
examination:
“Q. [City’s attorney:] And then he [opposing counsel] also mentioned that you do work
for corporations, correct?
A. Yes.
Q. And a corporation did not hire you to
appraise the subject property in this case, did
they?
A. It may have been one of Mr. Eychaner’s
corporations. I don’t recall.
Q. Well—
MR. GESELBRACHT [Eychaner’s attorney]:
Objection, you Honor.
THE COURT: Sustained. Move to strike[?]
MR. GESELBRACHT: Move to strike.
THE WITNESS: Okay.
THE COURT: That answer will be stricken.”
Eychaner requested a sidebar and moved to strike all
of MaRous’ testimony for violating the trial court’s in
limine order. Alternatively, Eychaner argued that the

47a
trial court should permit him to re-cross-examine
MaRous on his opinions not covered on the City’s
direct examination. As a second alternative, Eychaner
requested a curative instruction. The court denied
Eychaner’s motions, but did instruct the jurors “not to
concern themselves with who may have requested Mr.
MaRous to perform an appraisal of the subject
property.”
In Eychaner’s case-in-chief, he called Allen
Kracower as a land planning expert. Kracower
testified that the highest and best use for the land was
as a “multiple family residential” use. As to the
reasonable probably of rezoning, Kracower opined that
“it was reasonably probable * * * to have the property
rezoned” to allow “a multiple family higher-rise type
structure.” He based this opinion on the rezoning of 13
acres of nearby land outside of the PMD that was
originally zoned for industrial use and was rezoned in
1972 and 2002 for residential use: Kinzie Park and
Kinzie Station. These rezonings, Kracower stated,
showed that the industrial zoning designation was
flexible. He also noted that the surrounding area is
becoming increasingly residential to the east and
south even though industrial firms once dominated it.
In Kracower’s opinion, dense urban areas are not
suited for manufacturing, since such use requires an
abundance of land and unclogged trucking routes.
Regarding PMDs generally, Kracower opined that the
PMD was an out-of-date classification since it has not
stopped manufacturing from leaving the City. He also
said there were no residential uses in PMDs simply
because no one had asked for such a rezoning.
Eychaner then called Dale Kleszynski as an expert
real estate appraiser. Kleszynski opined that there
was a reasonable probability of rezoning and that the

48a
highest and best use of the land was as a residential
high rise. He noted many properties in the area,
especially on the east side of the Chicago River, had
transitioned from industrial to residential. Kleszynski
valued the land at $5.1 million. On cross-examination,
however, Kleszynski revealed that, for valuation
purposes, he did not compare Eychaner’s land to land
in other PMDs. He also could not cite a single instance
of a residential use in any PMD.
Eychaner also called Nora Curry, a financial planning analyst with the City’s department of housing
and economic development. Curry testified about the
nature and purpose of PMDs to create a stable areas
of industry.
In its rebuttal case, the City called Thouvenell, who
valued the land at $3.6 million and stated that its
highest and best use was as multifamily residential
use. He testified to a reasonable probability of rezoning for multifamily residential use. He admitted that
in the City’s 13 PMDs, there were no residential
uses, and he relied on other nearby properties that
have been rezoned from industrial to residential
classifications.
The City then called Lawrence Okrent, an expert
land planner, who testified that there was no reasonable probability of rezoning Eychaner’s property. He
looked at zoning trends in the area dating back to the
1920s. He opined that the creation of this PMD was
consistent with land use trends in the area. Okrent
disagreed with Kracower regarding the meaningfulness of nearby residential development. He distinguished Eychaner’s property from others because it
was in the middle of the PMD, making it an unlikely
candidate for residential rezoning. For the City
Council to adopt residential zoning for Eychaner’s

49a
land, he testified, would be careless, and the highest
and best use of the land was for light industrial and
commercial uses, consistent with the PMD zoning.
The jury returned a verdict of $2.5 million.
Eychaner appeals.
ANALYSIS
Eychaner raises seven issues on appeal regarding
both the traverse and the trial on just compensation.
We find no constitutional error, but reverse for a new
trial on just compensation.
Eminent Domain in a Conservation Area
Eychaner argues that the City may not exercise the
power of eminent domain in a conservation area in the
name of economic redevelopment. We disagree. We
review the constitutionality of a taking de novo.
Southwestern Illinois Development Authority v.
AlMuhajirum, 318 Ill. App. 3d 1005, 1008 (2001).
Condemnation, or eminent domain, is the process by
which the government takes private property for
public purposes subject to payment of just compensation. Village of Bellwood v. American’ National Bank
& Trust Co. of Chicago, 2011 IL App (1st) 093115, ¶
18. The Illinois Constitution and the United State
Constitution prohibit the taking of private property for
a public purpose without payment. Ill. Const. 1970,
art. I, § 15; U.S. Const., amend. V. While the power
and right of eminent domain are indeed vast, they are
heavily regulated by legislation. Department of Public
Works & Buildings v. Kirkendall, 415 Ill. 214, 218
(1953).
The government’s exercise of eminent domain must
be for some public purpose. City of Chicago v. Barnes,
30 Ill. 2d 255, 257 (1964). Nevertheless “private

50a
persons may ultimately acquire ownership of property
arising out of a taking and the subsequent transfer to
private ownership does not by itself defeat the public
purpose.” Southwestern Illinois Development Authority
v. National City Environmental, LLC, 199 Ill. 2d 225,
235 (2002) (SWIDA). Moreover, “possessory use by the
public is not an indispensable prerequisite to the
lawful exercise of the power of eminent domain.”
People ex rel. Gutknecht v. City of Chicago, 3 Ill. 2d
539, 545 (1954).
Eychaner argues the City’s taking is unconstitutional, lacking a public purpose under SWIDA, 199 Ill.
2d 225 (2002). Eychaner mischaracterizes SWIDA,
arguing that the City cannot use eminent domain to
transfer property from one party to another unless the
property is blighted. But SWIDA focuses on the motive
behind the taking, and does not support Eychaner’s
position.
In SWIDA, the Southwestern Illinois Development
Authority (SWIDA) sought to exercise its eminent
domain powers to take 148.5 acres of land belonging to
a recycling company and transfer it to a racetrack for
use as a parking lot. Id. at 228-29. SWIDA cited less
traffic, better public safety, economic benefits, and the
reduction of blight as the public purposes of the taking,
but conducted no study and had no economic plan to
support these findings. Id. at 232- 33. The trial court
approved the taking as constitutional, but the
supreme court reversed. Id. at 227. SWIDA permits a
government to take property in the name of economic
redevelopment as long as members of the public are
the primary intended beneficiaries of the taking
rather than private businesses. Id. at 240.
The supreme court established no “bright-line test”
or set of factors to distinguish public versus private

51a
beneficiaries. Id. Rather, the court noted that the
facts—significantly, a lack of a parking study or
economic plan—showed this was a sweetheart deal,
and that SWIDA did not intend to benefit the public at
all:
“While the activities here were undertaken
in the guise of carrying out its legislated
mission, SWIDA’s true intentions were not
clothed in an independent, legitimate governmental decision to further a planned public
use. SWIDA did not conduct or commission a
thorough study of the parking situation at
Gateway. Nor did it formulate any economic
plan requiring additional parking at the
racetrack. SWIDA advertised that, for a fee,
it would condemn land at the request of
‘private developers’ for the ‘private use’ of
developers. In addition, SWIDA entered into
a contract with [the racetrack] to condemn
whatever land ‘may be desired * * * by [the
racetrack].’ Clearly, the foundation of this
taking is rooted not in the economic and
planning process with which SWIDA has been
charged. Rather, this action was undertaken
solely in response to Gateway’s expansion
goals and its failure to accomplish those goals
through purchasing [the recycling center’s]
land at an acceptable negotiated price. It
appears SWIDA’s true intentions were to act
as a default broker of land for Gateway’s
proposed parking plan.” (Emphases added.)
Id. at 240-41.
This court commented in dicta on SWIDA in City of
Chicago v. Midland Smelting Co., 385 Ill. App. 3d 945
(2008). We noted that SWIDA did not stand for the

52a
proposition that takings in the name of economic
redevelopment required a right of public access to the
taken property. Id. at 971. Rather, “‘possessory use by
the public is not an indispensable prerequisite to the
lawful exercise of the power of eminent domain.’ “ Id.
at 973 (quoting People ex rel. Gutknecht v. City of
Chicago, 3 Ill. 2d 539, 544-45 (1954)). Instead, the
SWIDA court “focused on the motives behind the
taking and whether the taking was in fact intended to
benefit the public or, rather, to benefit purely private
interests.” Id. at 971-72.
SWIDA does not stand for the proposition, as
Eychaner urges, that a taking in a conservation area
is unconstitutional. In People ex rel. Gutknecht v. City
of Chicago, 3 Ill. 2d 539 (1954), and Kelo v. City of New
London, Connecticut, 545 U.S. 469 (2005), the Illinois
Supreme Court and United States Supreme Court
held these takings constitutional.
In Gutknecht, the Illinois Supreme Court dealt with
the constitutionality of a taking in a conservation area
under the Urban Community Conservation Act (Ill.
Rev. Stat. 1953, ch. 67 1/2, 91.8, et seq.). Gutknecht, 3
Ill. 2d at 541. That statute defined “conservation
areas,” like the statute here, as those areas “likely to
become slum and blighted areas if their deterioration
is not arrested.” Id. at 542. The statute called for the
creation of “municipal community conservation
boards” to designate areas as conservation areas, and,
after investigations and hearings, to adopt conservations plans to prevent the areas from becoming
blighted. Id. If the board adopted a conservation plan,
it could take land through eminent domain when
appropriate to the plan’s implementation. Id. at 543.
The plaintiff in Gutknecht challenged the validity of
these takings. It argued that because the statute

53a
allowed properties acquired through eminent domain
to be transferred to private developers in accordance
with a conservation plan, the taking had no public
purpose. Id. at 544. Eychaner makes the same argument. Our supreme court roundly rejected that
position, holding “[w]hen such areas have been
reclaimed and the redevelopment achieved, the public
purpose has been fully accomplished.” (Internal
quotation marks omitted.) Id. at 545.
Nor was it fatal that the Gutknecht takings were
done to prevent blight rather than eliminate it
(another of Eychaner’s arguments). Rejecting this
position, the court said it knew of no constitutional
principle requiring a government to deal with blight
only after “it has reached its maximum development.”
Id. The court also rejected the argument that the use
of eminent domain to prevent slums would mean every
piece of property potentially could be condemned. Id.
“Legitimate use of governmental power is not
prohibited because of the possibility that the power
may be abused.” Id.
Similarly, the United State Supreme Court in Kelo
v. City of New London, Connecticut, 545 U.S. 469
(2005), found no issue with this kind of taking. There,
a state-sanctioned nonprofit created a development
plan to revitalize an economically distressed portion of
the city. Id. at 472-74. Part of that plan included the
acquisition of 115 privately owned properties for use
as a conference center hotel among other commercial
and recreational uses. Id. at 474. Many of the
individual properties were not blighted, but were
condemned only because they were located in the
planned development area. Id. at 475.
Addressing the same arguments, the court rejected
the condemnees’ position on the constitution’s public

54a
use mandate, holding the fifth amendment’s public
use requirement did not require the public actually be
able to use the taken land. Id. at 479. Rather, “it
embraced the broader and more natural interpretation
of public use as ‘public purpose.’” Id. at 480. That
interpretation granted great deference to state
legislatures to determine “what public needs justify
the use of the takings power.” Id. at 483. Thus, the
court reasoned that the plan the city set forth—to
revitalize a distressed area—satisfied the public use
requirement:
“The City has carefully formulated an economic development plan that it believes will
provide appreciable benefits to the community, including—but by no means limited to—
new jobs and increased tax revenue. *** To
effectuate this plan, the City has invoked a
state statute that specifically authorizes the
use of eminent domain to promote economic
development. Given the comprehensive
character of the plan, the thorough deliberation that preceded its adoption, and the
limited scope of our review, it is appropriate
for us *** to resolve the challenges of the
individual owners, not on a piecemeal basis,
but rather in light of the entire plan. Because
that plan unquestionably serves a public
purpose, the takings challenged here satisfy
the public use requirement of the Fifth
Amendment.” (Emphases added.) Id. at 48384.
Guided by SWIDA, Gutknecht, and Kelo, we turn to
the City’s taking, and hold that it unquestionably
serves a public purpose of preventing blight, promoting economic revitalization, and protecting existing

55a
industry. As the City noted at oral argument, the
public purpose of the PMD and River West TIF was “to
make this whole area work for everyone.”
We begin with the authority under which the City
exercised the taking. See Lake Louise Improvement
Ass’n v. Multimedia Cablevision of Oak Lawn, Inc.,
157 Ill. App. 3d 713, 716 (1987) (“the question of
whether a particular taking authorized by a legislative
enactment should not be construed constitutionally
without a complete inquiry into the substance of the
legislation and its ultimate purpose”).
The City took Eychaner’s property under the Tax
Increment Allocation Redevelopment Act (Act) (65
ILCS 5/11-74.4-1 et seq. (West 2004)), which allows
municipalities to use eminent domain within a
“redevelopment project area * * * to achieve the
objectives of the redevelopment plan and project.” 65
ILCS 5/11-74.4-4(c) (West 2004). A “redevelopment
plan” is a program “to reduce or eliminate” conditions
that cause the area to be labeled as a “blighted area,”
a “conservation area,” or an “industrial park conservation area.” (Internal quotation marks omitted.) 65
ILCS 5/11-74.4-3(n) (West 2004). In addition to
eminent domain, a municipality may acquire and
dispose of property in any number of ways to further a
redevelopment plan. See 65 ILCS 5/11-74.4-4(c) (West
2004) (“A municipality may *** acquire by purchase,
donation, lease or eminent domain; own, convey, lease,
mortgage or dispose of land and other property, real or
personal, or rights or interests therein, and grant or
acquire licenses, easements and options with respect
thereto, all in the manner and at such price the
municipality determines is reasonably necessary to
achieve the objectives of the redevelopment plan and
project.”).

56a
Under the Act, an improved area is considered
“blighted” where “buildings or improvements are
detrimental to the public safety, health, or welfare
because of a combination of 5 or more” blighting factors
distributed throughout the area, including: dilapidated, obsolescent, or deteriorated buildings; code violations; illegal uses; excessive vacancies; lack of ventilation, light, or sanitary facilities; inadequate utilities;
excessive or deleterious land use; the need for environmental remediation; lack of community planning;
and declining land values. (Emphasis added.) See 65
ILCS 5/11-74.4-3(a)(1)(A)-(M) (West 2004).
Similarly, an improved area is considered a “conservation area” where “50% or more of the structures” are
35 years old or older, and the “area is not yet a blighted
area but because of a combination of 3 or more of the
above blighting factors, the “area may become a
blighted area.” (Emphasis added.) See 65 ILCS 5/1174.4-3(b)(1)-(13) (West 2004). (The blighting factors for
a “blighted area” and a “conservation area” are, for the
most part, identical. The differences between the
factors are either insubstantial or irrelevant. Compare
65 ILCS 5/11-74.4-3(a)(1)(G) (West 2004) and 65 ILCS
5/11-74.4-3(b)(7) (West 2004); compare 65 ILCS 5/1174.4- 3(a)(1)(M) (West 2004) and 65 ILCS 5/11-74.43(b)(13) (West 2004).)
The Act’s definition of a “conservation area” is
similar to the term’s definition in the Urban
Community Conservation Act, the statute at issue in
Gutknecht, 3 Ill. 2d at 541. In the Act’s legislative
findings, the General Assembly noted that “conservation areas are rapidly deteriorating and declining and
may soon become blighted areas if their decline is not
checked.” 65 ILCS 5/11-74.4-2(a) (West 2004). The
legislature further found that the presence of blighting

57a
factors in a conservation area endangers the area’s
“stable economic and physical development.” Id. “[T]o
remove and alleviate adverse conditions it is necessary
to encourage private investment and restore and
enhance the tax base of the taxing districts in such
areas by the development or redevelopment of project
areas.” 65 ILCS 5/11-74.4-2(b) (West 2004). Redevelopment projects that eliminate blighting factors from
conservation areas are, as the legislature found,
“essential to the public interest.” Id.
Eychaner does not contest the designation of the
River West TIF as a conservation area. That is, he does
not contest that the area is under the threat of
becoming blighted. Under Gutknecht, the government
may use the power of eminent domain to prevent
future blight in a conservation area such as the River
West TIF. Gutknecht, 3 Ill. 2d at 545. Eychaner
incorrectly argues that SWIDA’s holding foreclosed
takings unless to eliminate already existing blight.
Not so.
When determining the limits of the government’s
right to take private property, we will defer to the
General Assembly’s exercise of those powers. Id. at
543; SWIDA, 199 Ill. 2d at 236 (“Great deference
should be afforded the legislature and its granting of
eminent domain authority.”). Under SWIDA, that
deference evaporates when the public purpose behind
the taking is a pretext, when a municipality uses
eminent domain as a weapon to forcibly transfer
property from one private owner to another. See
SWIDA, 199 Ill. 2d at 240 (“While [SWIDA’s] activities
here were undertaken in the guise of carrying out its
legislated mission, SWIDA’s true intentions were not
clothed in an independent, legitimate governmental
decision to further a planned public use.”); Kelo v. City

58a
of New London, Connecticut, 545 U.S. 469, 478 (2005)
(noting government would not be allowed “to take
property under the mere pretext of a public purpose,
when its actual purpose was to bestow private
benefit.”); cf. Franco v. National Capital Revitalization
Corp., 930 A.2d 160, 169 (D.C. 2007) (finding “pretext”
to be valid affirmative defense to condemnation for
economic redevelopment).
Recognizing the difference between a valid public
use and a sham can be challenging. But a telling
feature of sound public use in the context of economic
redevelopment is the existence of a well-developed,
publicly vetted, and thoughtful economic development
plan. Such a plan was present in Kelo,545 U.S. at 48384, and Gutknecht, 3 Ill. 2d at 542-43, but absent in
SWIDA, 199 Ill. 2d at 240 (“SWIDA did not conduct or
commission a thorough study of the parking situation
at [the racetrack]. Nor did it formulate any economic
plan requiring additional parking at the racetrack.”).
A taking will likely pass constitutional muster where
done in furtherance of a sound economic development
plan, rather than the plan retroactively justifying the
taking. Cf. Romeo v. Cranston Redevelopment Agency,
254 A.2d 426, 433 (R.I. 1969) (“governing bodies must
either plan for the development or redevelopment of
urban areas or permit them to become more congested,
deteriorated, obsolescent, unhealthy, stagnant, inefficient and costly” (internal quotation marks omitted)).
The City had a plan when it created the PMD to
promote industrial investment and prevent residential encroachment on existing factories. The City
wanted to foster its industrial and commercial base
while maintaining a diversified economy. In creating
a large contiguous PMD, the City created an area
where industrial and commercial users could rely on a

59a
stable and predictable zoning scheme. That stability
would encourage investment, modernization, and
expansion of existing industrial facilities while minimizing future conflicts between industrial and residential property owners. Investment would promote
job growth and increase tax revenues. The City
logically found that, given the increasingly residential
nature of the area surrounding the Loop, existing
manufacturing firms had little incentive to invest in
their facilities—let alone stay in their current
locations—especially knowing that rising land values
and taxes would soon make their current locations
unfeasible if nearby residents complained about
factory operations.
The City also created the River West TIF to further
similar goals through the exercise of eminent domain
and to act as a “financial mechanism” to implement
the PMD. Before approving the River West TIF, the
City thoroughly studied the proposed area and created
strategies for its revitalization. One of the goals for the
River West TIF, given the “inherent incompatibility
between new residents and existing industry,” was to
minimize the conflict between residential and industrial uses. This included “protect[ing] and enhanc[ing]
the remaining industrial areas already in proximity to
the Loop,” and creating buffer zones between industrial and residential uses. Anticipated benefits of the
River West TIF included more economic and employment opportunities, increased tax revenue, and the
prevention of blight. Moreover, in the ordinance
authorizing the taking of Eychaner’s land, the City
found the eminent domain action in line with the goals
of the River West TIF.
The findings associated with the PMD, the River
West TIF, and the ordinance authorizing the taking of

60a
Eychaner’s land do not indicate a sweetheart deal to
help Blommer avoid paying full price for Eychaner’s
land on the real estate market, as was the case in
SWIDA, 199 Ill. 2d at 239-40. On the contrary, these
plans show the City, in good faith, considering the
public use of taking Eychaner’s land, and finding it in
conformance with the goals of the Act, the PMD, and
River West TIF to check future blight, to minimize the
conflict between residential and industrial uses, and
promote the economic revitalization of a conservation
area. See 65 ILCS 5/11-74.4-3(n) (West 2004); Northeast Parent & Child Society, Inc. v. City of Schenectady
Industrial Development Agency, 114 A.D.2d 741, 742
(N.Y. App. Div. 1985) (finding valid public use in
taking of school for industrial use to retain local
industry); General Building Contractors, LLC. v.
Board of Shawnee County Commissioners of Shawnee
County, 66 P.3d 873, 883 (Kan. 2003) (holding development of industrial park valid public purpose of
encouraging economic development).
Eychaner cites no evidence that the River West TIF
and PMD were set up as a sham to take his property.
He does not attack the findings of the study underlying
the River West TIF, which noted the presence of four
blighting factors, and the need for economic revitalization and reinvestment. See Malec v. City of Belleville,
407 Ill. App. 3d 610, 632 (2011) (“When a municipality
approves the findings of blight in an ordinance, a
presumption exists that the municipality’s findings of
blight were valid.”). The goals of the River West TIF—
to reduce blighting factors, prevent blight, foster the
City’s industrial base, prevent conflicts between
residential and industrial uses, and retain existing
industry—all constitute valid public uses. The taking
of Eychaner’s land to expand Blommer’s industrial

61a
campus land furthers each of these goals, and is thus
a sound use of eminent domain.
Eychaner next argues that his property shows no
signs of blight and therefore cannot be taken. Our
supreme court long ago rejected this argument. See
City of Chicago v. Barnes, 30 Ill. 2d 255, 257 (1964)
(“the fact that there may be some sound buildings in
the slum and blighted area is no defense to the
proceedings. Property may be taken which, standing
by itself, is unoffending, for the test is based on the
condition of the area as a whole.”); Village of Wheeling
v. Exchange National Bank of Chicago, 213 Ill. App. 3d
325, 332 (1991) (same). The argument suffers from
tunnel vision. The question of whether a taking
prevents or eliminates blight focuses on the area in
question—here, the River West TIF—not Eychaner’s
individual property.
Eychaner casts aspersions on the deal between the
City and Blommer to expand Blommer’s campus.
Throughout his briefs, he implies that that deal was
the impetus behind both the PMD and River West TIF.
This is incorrect. Rather, the City conceived of the
PMD and River West TIF as part of an economic
revitalization plan. Blommer’s objection to its inclusion in the PMD created a roadblock to the City’s plan,
which the City removed when it agreed to aid and fund
the expansion of Blommer’s campus. While numerous
land owners objected to their inclusion in the PMD,
the City only acted on Blommer’s objection. Naturally,
the City did not want the PMD to cause hardship to
existing industry like Blommer—a result contrary to
the stated purposes of the PMD and River West TIF.
Accordingly, Eychaner’s characterization is untrue.
Thus, the use of eminent domain to expand Blommer’s
campus passes constitutional muster because it aligns

62a
with the goals of the City’s economic development plan
to retain existing industry, prevent conflicts between
residential and industrial use, and promote investment and revitalization in a conservation area.
The trial court properly denied Eychaner’s traverse
and motion to dismiss.
The “Scope of the Project” Rule
Eychaner next argues that the trial court erred
when it denied his motion in limine to exclude
reference to his property’s PMD zoning. He asserts
that the zoning was inadmissible under the “scope of
the project” rule or “project influence” rule. We agree.
Generally, we review the denial of a motion in limine
for an abuse of discretion. Minos State Toll Highway
Authority v. Heritage Standard Bank & Trust Co., 250
Ill. App. 3d 665, 673 (1993). But where the issue is one
of statutory interpretation, our review is de novo.
People v. Childress, 338 Ill. App. 3d 540, 547 (2003).
Generally, the valuation date of condemned
property is the time of filing the petition for
condemnation. City of Chicago v. Riley, 16 Ill. 2d 257,
264 (1959). The “scope of the project rule” is an
exception to this rule, and is codified in the Eminent
Domain Act, 735 ILCS 30/1-1-1 et seq. (West 2012).
Regarding valuation, the rule states:
“In the condemnation of property for a
public improvement, there shall be excluded
from the fair cash market value of the
property any appreciation in value proximately caused by the improvement and any
depreciation in value proximately caused by
the improvement. However, such appreciation
or depreciation shall not be excluded when
property is condemned for a separate project

63a
conceived independently of and subsequent to
the original project.” (Emphasis added.) 735
ILCS 30/10-5-60 (West 2012) (formerly 735
ILCS 5/7-121 (West 2004) (no substantive
differences)).
As Eychaner notes, this statue codifies the rule from
United States v. Miller, 317 U.S. 369 (1943). See 3
Philip Nichols on Eminent Domain § 8A.01(3)(a)-(b)
(3d ed. 1997).
The facts of Miller clarify application of the rule. In
Miller, the government flooded an area which a
railroad passed through. Miller, 317 U.S. at 370. To
compensate the railroad, the government selected
sites as possible alternatives for the railway. Id. at
371. In the intervening years between the flood and
building the new rail line, a town sprung up on the
now valuable waterfront property created by the
flooding. Id. When time came to relocate the railway,
the government filed an action in eminent domain to
take the townspeople’s land. Id. On the issue of just
compensation, the trial court did not allow the jury to
consider the increase in value that the flood caused,
and the United State Supreme Court affirmed. The
court reasoned that if “the public project from the
beginning included the taking of certain tracts but
only one of them is taken in the first instance, the
owner of the other tracts should not be allowed an
increased value for his lands which are ultimately to
be taken.” (Emphasis added.) Id. at 376-77. “The rule
does not require a showing that the land ultimately
taken was actually specified in the original plans for
the project. It need only be shown that during the
course of the planning or original construction it
became evident that land so situated would probably

64a
be needed for the public use.” United States v.
Reynolds, 397 U.S. 14, 21 (1970).
Similarly, application of Illinois’s scope of the
project rule requires a two-step project. That is, an
“original project” must cause an increase or decrease
in the value of the condemnee’s land, followed by a
separate project “conceived independently of and subsequent to the original” in which the condemnee’s land
is taken. 735 ILCS 30/10-5-60 (West 2012); see Conti
v. Rhode Island Economic Development Corp., 900
A.2d 1221, 1233-34 (R.I. 2006) (“scope-of-the-projectrule cases often involve drawn out governmental
projects, piecemeal takings separated by noticeable
gaps in time, and some evidence that, in the interim,
the market values of neighboring properties increased
because of the projects”).
The rule ensures that the price of the condemned
land reflects the condemnee’s reasonable expectation
that its land would or would not be taken as part of the
original project. See Merced Irrigation District v.
Woolstenhulme, 483 P.2d 1, 12 (Cal. 1971) (“the
increase in value of land which is initially expected to
be outside the boundaries of a proposed improvement,
must be recognized to constitute a proper element of
just compensation”). If the condemnee reasonably did
not expect the government to include its land as part
of the original project, the price should reflect any
increase or decrease caused by that project. But if the
condemnee did reasonably expect the taking as part of
the original project, the price should not take the
existence of that project into account.
The initial question is the meaning of the term
“public improvement.” See 735 ILCS 30/10-5-60 (West
2012). Courts read statutes to ascertain and give effect
to the intent of the legislature as evidenced by the

65a
plain and ordinary meaning of the statute’s language.
People v. Donoho, 204 III. 2d 159, 171 (2003). We may
then consider “the reason for the law, the problems to
be remedied, and the objects and purposes sought.” Id.
at 171-72.
“Public improvement” involves the ultimate use of
the taken property or the public benefit resulting from
the taking itself. The statute refers to the “public
improvement” in terms of the purpose the taking. 735
ILCS 30/10-5-60 (West 2012). Where land is taken for
a park or a highway or similar public project, the park
or highway is the “improvement.” But the government
may also take land in a blighted area without a plan
for future use. City of Chicago v. Barnes, 30 Ill. 2d 255,
256-57 (1964). Where there is no planned use, the
definition of the “public improvement” becomes more
nebulous. Then, the “public improvement” is the
public benefit that results from the taking.
Here, the “public improvement” is Blommer’s
expanded industrial campus, the ultimate use of
Eychaner’s property.
We next turn to application of the Illinois “scope of
the project” rule, which in this case turns on whether
the taking and the depreciation caused by the PMD
occurred as a single project or as separate projects
“conceived independently” of each other. 735 ILCS
30/10-5-60 (West 2012). Like the takings in Miller, 317
U.S. at 376-77, this case involves a single project.
The record indicates that the creation of the PMD,
the River West TIF, and the taking of Eychaner’s land
were all a single project. The City began the process of
creating the PMD in late 1999 with the goal of
protecting industrial users like Blommer. The City’s
study regarding the River West TIF indicated that it

66a
was a “financial mechanism necessary to implement
the goals and objectives of the PMD. The taking of
Eychaner’s land was not only an integral part of
creating the PMD, but also served to carry out the
goals of PMD and River West TIF. Namely, the
preservation of the City’s industry, prevention of
conflicts between industrial and residential uses, job
creation, and increased tax revenue.
The City argues that the inclusion of Eychaner’s
land in the PMD, and the corresponding depreciation,
was not part of the project to expand Blommer’s
factory. But, the City and Blommer’s conceived of the
idea to expand Blommer’s industrial campus during
the process of creating the PMD. Blommer’s support
for the PMD was integral to its creation, and the
City won that support by agreeing to help expand
Blommer’s facilities. Indeed, the expansion plans,
which included Eychaner’s land, were drawn up in
May 2000, months before the City passed the
ordinance creating the PMD.
The City further argues that Eychaner’s land would
have been included in the PMD even if it was not taken
for Blommer’s expansion. This, however, speculative.
No evidence indicates what might have happened had
the City not agreed to aid Blommer. There might have
been no PMD at all, or perhaps the boundaries might
have been altered. But speculation does not provide a
basis to support the trial court’s ruling. Cf. Rogers v.
Matanda, Inc., 393 Ill. App. 3d 521, 527 (2009) (“The
existence of proximate cause cannot be established by
speculation, surmise, or conjecture.” (Internal
quotation marks omitted.)); Parks v. Brinkman, 2014
IL App (2d) 130633, 67 (“Speculation cannot take
the place of evidence.”). Accordingly, the PMD
zoning—as a depreciation proximately caused by the

67a
improvement—should have been excluded under the
Illinois “scope of the project” rule (735 ILCS 30/10-560 (West 2012)), and the trial court erred.
Eychaner characterizes the PMD zoning of his
property as downzoning. We disagree. Generally, a
collateral attack on the zoning at the time of a taking
is not permitted in eminent domain proceedings.
Department of Public Works & Buildings v. Exchange
National. Bank, 31 Ill. App. 3d 88, 98 (1975). Downzoning is an exception. Where the condemnor rezones
a parcel of land to depress its value in future eminent
domain proceedings, the condemnee may attack the
validity of the rezoning ordinance. Id. There is no
evidence that the City rezoned Eychaner’s land to
depress its value.
Evidence of City’s Motive behind PMD Zoning
Eychaner next argues that the trial court erred in
excluding some evidence of how the City adopted the
PMD zoning. Having held that the trial court erred in
allowing evidence of the PMD zoning under the Illinois
“scope of the project” rule, the jury should not consider
how the City adopted the zoning. As our supreme court
stated long ago, the purpose in taking the land,
“[w]hether or not the project is necessary or advisable,
or the necessity for taking the property, or whether
more property is taken than necessary *** are not
questions for the jury.” St. Clair County Housing
Authority v. Quirin, 379 Ill. 52, 57 (1942); see Lake
County Forest Preserve District v. O’Malley, 96 Ill.
App. 3d 1084, 1091 (1981) (holding that condemnor
may not appeal to jury’s self interests in valuing
property).

68a
Appraisers’ Tesitmony
Eychaner raises three issues with the testimony at
trial, including the trial court: (i) allowing the City’s
calling MaRous and Thouvenell, who had once been
disclosed as Eychaner’s experts; (ii) not permitting
Eychaner to cross-examine MaRous on his opinion of
the reasonable probability of rezoning; and (iii)
refusing to strike MaRous’ testimony after he violated
its in limine order. We review each of these for an
abuse of discretion, and find that the trial court
abused its discretion in limiting the cross-examination
of MaRous.
As to the first issue, Rule 218 states that “[a]ll dates
set for the disclosure of witnesses *** shall be chosen
to ensure that discovery will be completed not later
than 60 days before the date on which the trial court
reasonably anticipates that trial will commence,
unless otherwise agreed by the parties. This rule is
to be liberally construed to do substantial justice
between and among the parties.” Ill. S. Ct. R. 218(c)
(eff. July 1, 2014). Failure to disclose an expert within
the 60-day timeframe does not mean the trial court
must automatically bar the witness. Hartman v.
Pittsburgh Corning Corp., 261 Ill. App. 3d 706, 719
(1994). “Rather, the imposition of sanctions for a
violation of discovery rules has always been, and still
remains, a matter largely within the sound discretion
of the trial court.” (Internal quotation marks omitted.)
Id. The trial court should consider prejudice and
surprise to the opposing party when developing a
sanction for late designation of expert witnesses. Id. at
720.
The trial court did not abuse its discretion in
allowing the City to call MaRous and Thouvenell. The
City added these two witnesses on October 31, 2012,

69a
when the trial was scheduled for November 5, 2012.
The trial court declined to strike the two witnesses,
but continued the start of trial to January 22, 2013.
This course of action was well within the court’s power.
Because Eychaner formerly retained these witnesses,
there was minimal prejudice to Eychaner’s case that
could not be cured by a simple continuance and verbal
sanction. While the judge could have barred MaRous
and Thouvenell from testifying, she was not required
to do so.
Nevertheless, the trial court abused its discretion in
limiting Eychaner’s cross-examination of MaRous.
Illinois Rule of Evidence 611(b) (eff. Jan. 1, 2011)
states, “Cross-examination should be limited to the
subject matter of the direct examination and matters
affecting the credibility of the witness. The court may,
in the exercise of discretion, permit inquiry into
additional matters as if on direct examination.” Where
the trial court limited cross examination, we will only
reverse if an abuse of discretion resulted in manifest
prejudice to the limited party. Bauer v. Memorial
Hospital, 377 Ill. App. 3d 895, 915 (2007).
But, the opinion of an expert is only as valid as the
bases for that opinion. Perona v. Volkswagen of
America, Inc., 2014 IL App (1st) 130748, ¶ 51. A
litigant may develop on cross-examination circumstances within the witness’s knowledge or opinion that
explain, discredit, or destroy the witness’s testimony
on direct although they may incidentally constitute
new matter that aids the cross-examiner’s case.
Anderson v. Mercy, 338 Ill. App. 3d 685, 689,(2003).
Facts, data, and opinions which form the basis of the
expert’s opinion but which are not disclosed on direct
may be developed on cross-examination. Id. The crossexaminer may also elicit, emphasize, or otherwise call

70a
attention to facts or opinions avoided or minimized on
direct examination. Id.
On direct examination, MaRous testified as follows:
“Q. [City’s attorney:] *** [Y]ou provided an
opinion of value of the subject property based
on a highest and best use being commercial
use permitted under PMD 5, correct?
A. [MaRous:] As part of my opinions, yes.
* * *
Q. *** I want to show you Plaintiffs Exhibit
No. 111.
Do you recognize—do you understand what
this says?
A. Yes.
Q. And can you read it to the jury?
A. Michael MaRous’ opinions as of August
24, 2005, the fair cash market value of the
subject property based on a highest and best
use being a commercial use permitted under
the existing PMD 5 zoning regulation is
$2,550,000. This is equivalent to $100 per
square foot of land area.
Q. And that is your opinion, correct?
A. Under that highest and best use, correct.”
(Emphases added.)
On cross-examination, MaRous opined as follows:
“Q. [Eychaner’s attorney:] Now, [plaintiffs
exhibit No. 111 is] you’re opinion on the
assumption that the highest and best use is a

71a
commercial use permitted under the existing
PMD 5 zoning regulations; is that correct?
* * *
A. That is correct.
* * *
Q. Under the—what are the Uniform
Standards of Professional Appraisal Practice?
A. They are rules that appraisers are
required to follow.
Q. And under the Uniform Standards of
Professional Appraisal Practice, what is an
extraordinary assumption?
A. It is simply an assumption of something
that is not in place that could happen.
Q. Okay. And is it correct to say here that
this opinion is based on an extraordinary
assumption that the subject site remains
bound to the PMD in perpetuity?
MR. ASARO [City’s attorney]: Objection,
motion in limine. Ask to be heard.
THE COURT: Overruled.
THE WITNESS [MaRous]: That is correct.”
(Emphasis added.)
The City’s limiting of MaRous’s opinion to a canned
statement should not have limited Eychaner’s crossexamination. MaRous stated on direct that the
solicited opinion only reflected part of his valuation,
and on cross he noted his opinion was based on an
“extraordinary assumption” that Eychaner’s property
could not be rezoned. The court erred in disallowing
Eychaner from probing the sufficiency of MaRous’s

72a
assumptions and the soundness of his opinions.
Halleck v. Coastal Building Maintenance Co., 269 Ill.
App. 3d 887, 897-98 (1995).
The City argues that the trial court reasonably
limited cross-examination of MaRous because Eychaner
sought to elicit a different opinion from the one raised
on direct. We disagree. It is possible to describe every
conclusion an expert reaches as a separate opinion. It
more accurate to describe MaRous’s opinion regarding
the reasonable probability of rezoning as an assumption underlying his valuation opinion. The weaknesses
and strengths of assumptions underlying an expert’s
opinion constitute an area rightly explored and
challenged on cross-examination. See People v. Pasch,
152 Ill. 2d 133, 179 (1992) (holding cross-examiner
may probe expert’s qualifications, experience, sincerity, weaknesses in basis, sufficiency of assumptions,
soundness of opinion, and material reviewed but not
relied on). Eychaner was entitled to impeach MaRous
on cross-examination with his own opinion. This
would undermine the reliability of MaRous’s valuation
opinion.
Last, the trial court did not abuse its discretion in
refusing to strike MaRous’ testimony for violating its
in limine order. While MaRous did identify Eychaner
as the one who originally retained him, the trial court
struck that testimony. It later gave a curative instruction that the jury should disregard and not consider
the statement. “A jury is presumed to have followed
the court’s instruction to disregard testimony.”
Buckholtz v. MacNeal Hospital, 337 Ill. App. 3d 163,
170 (2003). Eychaner submits no proof that the jury
failed to follow the trial judge’s instruction. See Kamp
v. Preis, 332 Ill. App. 3d 1115, 1127 (2002) (a claim of
prejudice from striken testimony without firm basis

73a
does not indicate abuse of discretion). But the jury
knowing that Eychaner originally retained MaRous
may have compounded the other errors already noted.
We are confident that the parties and witnesses will
strictly comply with the trial court’s rulings on motion
in limine on remand.
The Jury Verdict
Eychaner argues that the jury’s verdict was the
product of a clear and palpable mistake based on the
above errors. Because we are reversing for a new trial,
we decline to address this issue.
Affirmed in part and reversed in part. Cause
remanded.

74a
APPENDIX E
IN THE CIRCUIT COURT OF COOK COUNTY,
ILLINOIS COUNTY DEPARTMENT
LAW DIVISION
————
PROJECT: RIVER WEST TIF
Case No. 05 L 050792
Calendar: 2
Parcel BC-1
————
CITY OF CHICAGO, a municipal corporation,
Plaintiff,
vs.
FRED J. EYCHANER and UNKNOWN OWNERS,
Defendants.
————
FINAL JUDGMENT ORDER
THIS MATTER COMING ON TO BE HEARD upon
the complaint for condemnation, as amended, of
Plaintiff, THE CITY OF CHICAGO, a municipal
corporation, for the ascertainment of the just compensation to be made for the taking by Plaintiff for the
uses and purposes stated and set forth in its complaint, as amended, of the fee simple title to the real
property identified in said complaint, as amended, as
Parcel BC-1 and legally described in said complaint,
and the Plaintiff, appearing by its attorneys, [FILLER
TEXT] Stephen Patton ,Corporation Counsel, Barbara
Burke, Assistant Corporation Counsel, and Lenny D.
Asaro of Neal & Leroy, LLC, Special Assistant
Corporation Counsel; Defendant Fred J. Eychaner,
appearing by his attorneys, Thomas Geselbracht of
DLA Piper;

75a
And it appearing to the Court that all parties
defendant herein have been served with process in the
matter and form as provided for by statute or have
duly entered their appearances;
And the Court having jurisdiction of all the parties
to this suit and the subject matter thereof, and all
parties interested being before the Court, and the
Court being fully advised in the premises and having
ordered that a separate trial be had as to the real
property described in the complaint, as amended, as
Parcel BC-1, it was ordered that a jury be selected,
examined and sworn to ascertain and report the
just compensation to be made to the owner or owners
of and party or parties interested in the property
sought to be taken by these proceedings, according to
the facts in the case as they have been made to appear
from the evidence, and the jury, having heard the
evidence adduced herein, the arguments of counsel,
and instructions from the Court, brought in their
verdict on January 28, 2013, in the amount of TWO
MILLION FIVE HUNDRED THOUSAND DOLLARS
AND 10/100 ($2,500,000.00).
Whereupon the parties move for judgment on said
verdict and all persons interested being before the
Court, and the Court being fully advised in the
premises;
IT IS HEREBY ORDERED AND ADJUDGED that
the sum of money awarded by the jury in and by
their verdict to the owner or owners of and party or
parties interested in said real property described in
the complaint filed herein, as amended, is just compensation for the taking of the fee simple title to said
real property described as Parcel BC-1, and judgment
is herein entered accordingly.

76a
IT IS HEREBY ORDERED AND ADJUDGED that
Plaintiff, within ninety (90) days from the date of
entry of this order, shall deposit with the Treasurer of
Cook County, Illinois, for the benefit of the owner or
owners of and party or parties interested in Parcel
BC-1 the sum of TWO MILLION FIVE HUNDRED
THOUSAND DOLLARS AND 10/100 ($2,500,000.00)
plus statutory interest on said sum from January 28,
2013, until the date of deposit of said sum with the
Treasurer of Cook County, Illinois, as full compensation for the taking of the fee simple title to said real
property identified as Parcel BC-1.
IT IS FURTHER ORDERED AND ADJUDGED that
upon said deposit to the Treasurer of Cook County,
Illinois, Plaintiff may enter in and upon Parcel BC-1
and use the same for its uses and purposes.
DATE:

ENTERED:
/s/ Margaret A. Brennan
JUDGE
[STAMP]
ENTERED
JUDGE MARGARET A.
BRENNAN-1846
FEB 11 2013
DOROTHY BROWN
CLERK OF THE
CIRCUIT COURT OF
COOK COUNTY, IL
DEPUTY CLERK:

77a
APPENDIX F
IN THE CIRCUIT COURT OF COOK COUNTY,
ILLINOIS COUNTY DEPARTMENT-LAW
DIVISION TAX AND MISCELLANEOUS
REMEDIES SECTION
————
No. 05 L 050792
————
CITY OF CHICAGO, a municipal corporation,
Plaintiff,
v.
FRED J. EYCHANER and UNKNOWN OWNERS,
Defendants.
————
MEMORANDUM DECISION AND ORDER
Plaintiff, the City of Chicago (City), a municipal
corporation, filed a complaint to condemn the Defendant Fred J. Eychaner’s (Eychaner) property in furtherance of its River West Tax Increment Financing
Redevelopment Project pursuant to the Tax Increment
Allocation Redevelopment Act (Act). 65 ILCS 5/11-74.4
(West 2003). Currently before the Court is, the
Defendant’s traverse, which challenges the City’s
authority to condemn the subject property. Eychaner
alleges that the City failed to meet its burden in
establishing a prima facie case for its authority in
acquiring the subject property through the power of
eminent domain.

78a
Background
Traverse, a common law instrument, is the proper
method by which a defendant objects to a condemning
entity’s authority to condemn. Forest Preserve Dist. of
DuPage County v. Miller, 339 III. App. 3d 244, 250,
789 N.E.2d 916 (2d Dist. 2003). A property owner may
elect to challenge a condemnation proceeding with a
general traverse. Forest Preserve Dist., 339 Ill. App. 3d
at 250. The pleading requirements for a general
traverse are minimal. Forest Preserve Dist., 339 III.
App. 3d at 252. Once a traverse is filed in Illinois,
the burden is of the condemning body to make a prima
facie case of the disputed allegations. Lake County
Forest Preserve Dist. v. First Nat’l. Bank of Waukegan,
154 Ill. App. 3d 45, 51, 506 N.E.2d 424 (2d Dist. 1987).
The condemning body establishes a prima facie case
for the necessity of a condemnation by introducing a
resolution or ordinance of the governing body which
makes a finding that the condemnation is necessary.
Lake County Forest Preserve, 154 Ill. App. 3d at 51.
Once a condemning body has established a prima facie
case, the burden shifts to the defendant to show that
there was an abuse of discretion by the condemning
body. Lake County Forest Preserve, 154 Ill. App. 3d at
51.
The subject property is known as 460 to 468 North
Jefferson Street, Chicago, IL 60608, a vacant parcel of
25,440 square feet. Defendant Eychaner is an owner of
the subject property, with other persons or entities
(Unknown Owners) claiming some right, title or
interest in fee, or some lesser estate in the property.
The City is a municipal corporation organized as a
Home Rule unit of local government under the Illinois
Constitution of 1970.

79a
Based on its Home Rule authority, the City Council
passed an ordinance on December 11, 1991, creating
the Community Development Commission (CDC),
which assumed all “rights, powers, duties and obligations” of the former Commercial District Development Commission and former Department of Urban
Renewal. Chicago Municipal Code § 2-124-020. Further, this ordinance enabled the CDC to recommend to
the City that it “acquire by purchase, gift, lease,
condemnation, option or otherwise any rights in real
property” to carry out a redevelopment plan. Chicago
Municipal Code § 2- 124-030.
A Joint Review Board (Board), established in
accordance with the Act, 65 ILCS 5/11-74.4-5(b)
(West 2003), convened to consider the approval of
the River West Tax Increment Financing Redevelopment Plan (Plan). This Board recommended to the
CDC the approval of the Plan, designation of the
River West Redevelopment Project Area (Area), and
adoption of Tax Increment Allocation Financing (TIF).
On September 26, 2000, the CDC adopted Resolution
00-CDC-101, which accepted the Plan for review and
fixed a time and place for a public hearing. On
November 14, 2000, based on Resolution 00-CDC-112,
the CDC recommended that the City Council approve
the Plan. Pursuant to Sections 5/11-74.4-4 and 5/1174.4-5 of the Act, the City made the Plan and other
reports available to the public prior to holding a public
hearing. Pursuant to 65 ILCS 5/11-74.4-6 (West 2003),
notice of the hearing was given to all taxpayers having
property within the Area.
On January 10, 2001, the City Council passed
several ordinances. In one ordinance, the City Council
approved the Tax Increment Redevelopment Plan for
the Area. Journal of Proceedings of the City Council

80a
(JOP), 49902-49982. The City Council found that the
Area, as a whole, had not been subject to growth and
development through private investment, and for this
reason, it could not be expected to develop without
adopting the Plan. According to the Plan, the Area
qualified as a conservation area under the Act, making
it eligible for classification as a redevelopment project
area. The Plan listed the following among its goals
and objectives: reducing or eliminating conditions
that qualified the Area as a conservation area;
providing economic development in the Area; employing residents; improving utilities, roadways, transit
facilities, and infrastructure; and creating an environment that would contribute to the health, safety, and
general welfare of residents. JOP, 49916.
Another ordinance on January 10, 2001 designated
the area for redevelopment pursuant to the Act, noting
that conditions existed in the Area to qualify it as a
redevelopment project area and conservation area.
JOP, 49984-49990. The last ordinance of January 10,
2001 adopted the use of TIF to finance the project’s
redevelopment costs pursuant to 65 ILCS 5/11-74.4-8
(West 2003). JOP, 49991-49997. In compliance with
Section 5/11-74.4-4(c) of the Act, the City Council
authorized the Corporation Counsel to negotiate on
its behalf to acquire various parcels within the Area,
including the subject property. The Corporation
Counsel attempted to negotiate with the Defendant,
but the parties were unable to agree on an acquisition
price.
Based on the January 10, 2001 ordinances, the City
Council adopted another ordinance on June 19, 2002
to acquire various parcels of property within the River
West Tax Increment Financing District in accordance
with the Plan through the power of eminent domain,

81a
including the subject property. JOP, 88641-88642. In
the ordinance, the City Council determined that it
was “useful, desirable and necessary that the City of
Chicago acquire” the property parcels and that the
acquisition was “necessary and required for the home
rule public purpose of improving a commercially
blighted area.” JOP, 88642.
On August 24, 2005, the City filed a complaint to
condemn the subject property. On January 23, 2006,
the Defendant filed a traverse, challenging the
City’s authority to condemn the subject property. The
City Council approved a redevelopment agreement
between the City and Blommer Chocolate Company
(Blommer Chocolate) on February 8, 2006. Through
this agreement, the City would convey the subject
property to Blommer Chocolate for redevelopment in
furtherance of the Plan’s goals.
Based on these facts, the Defendant challenges the
authority of the condemning body, the City of Chicago.
Discussion And Analysis
As a sovereign entity, the State of Illinois has an
inherent right to condemn property, “subject to the
state constitutional mandate that private property
shall not be taken or damaged for public use without
just compensation to its owner.” Southwestern Dev.
Auth. (SWIDA) v. Nat’l City Envtl., L.L. C., 199 Ill. 2d
225, 235, 768 N.E.2d 1 (2002). The power of eminent
domain can be used “only on the occasion, in the mode
and by the agency prescribed by the legislature, and
only those corporations to whom the legislature has
delegated the authority can exercise such right.” St.
Louis C. R. Co. v. Blumberg, 325 Ill. 387, 393, 156 N.E.
298 (1927).

82a
The Illinois Supreme Court has long held that the
exercise of the eminent domain power is within the
bounds of judicial scrutiny and that the determination
of whether a given use is a public use is a judicial
function. People ex rel. Tuohy v. City of Chicago, 394
III. 477, 481, 68 N.E.2d 761 (1946). At the same time,
the Court has instructed that “great deference should
be afforded the legislature and its granting of eminent
domain authority.” SWIDA, 199 Ill. 2d at 236. When
reviewing the exercise of such authority, the Supreme
Court has cautioned that the task of defining whether
a taking is for a public use is not always an easy one.
The purpose may be highly beneficial to the
public as well as to private interests; and, on
the other hand, the use put to land acquired
by private interests by eminent domain may
be highly beneficial to the public, without
giving the latter any control over the property
taken.
The problem is rendered more complex by
development arising since the adoption of
the constitution, such as needs for acquiring
property for social, medical or health purposes, as well as for the application of new
inventions which may be adapted to public
use. Uses for purposes not contemplated at
the time may be, and frequently are, declared
by the legislature to be public uses for which
the power of eminent domain may be properly
used.
People ex rel. Tuohy, 394 Ill. at 481-82.
In this case, Defendant makes two main arguments
in support of the traverse. First, he argues that the
River West Redevelopment Project Area is not a

83a
blighted area and that absent blight, the City may not
exercise the right of eminent domain solely for the
purpose of redevelopment. To do so, Defendant contends, is to permit a taking without a public use.
Second, Defendant claims that the taking is unconstitutional because the City will convey the land to
Bloomer Chocolate, a private entity, under an agreement that already exists. Taking property from one
private person and conveying it to another, Defendant
argues, does not constitute a public use.
In addition, Defendant asserts that the City has not
met its burden here because the June 19, 2002
ordinance refers to a “commercially blighted area,”
when in fact the area is unequivocally not blighted. It
is, instead, a “conservation area,” as the January 10,
2001 ordinance states and as the City concedes.
According to Defendant, this factor is significant
because to be a proper public use as a constitutional
matter, the area must be blighted or a slum, whereas
a lesser standard may be applied in determining
whether an area qualifies as a redevelopment or TIF
area for purposes of the Act.
The City maintains that the property is being taken
in conformance with the Plan, which is designed to
prevent blighted conditions to the commercial and
industrial district and to conserve existing businesses
and industry in the Area. According to the City, the
Plan was properly applied after following the
provisions of the Act, and the City Council then
enacted various ordinances approving the designation
as a redevelopment area and the use of tax incremental financing and authorizing the acquisition of
Defendant’s property. By producing competent evidence of these facts, the City asserts that it has
satisfied its burden to establish its right to condemn.

84a
In addition, the City counters Defendant’s assertions by arguing that Illinois courts have consistently
recognized the proper authority of the legislature to
provide for condemning property in connection with a
redevelopment and TIF plan under the Act. It
maintains that no court has drawn a distinction
between a blighted area and a conservation area for
purposes of determining whether the taking involved
a public use. In fact, the City asserts, the factors to be
considered in designating an area as one or the other
are similar. The City also argues that a redevelopment
plan in a conservation district, as authorized by the
Act, is a proper public purpose. Further, the City
asserts that the conveyance of the property to Bloomer
Chocolate does not offend the constitution because
such a conveyance is consistent with the goals of the
Plan and will be carried out in a manner that benefits
the public by creating jobs, eliminating traffic
problems, and increasing the tax base.
Defendant places great weight on the Supreme
Court’s decision in SWIDA,199 Ill. 2d 225, to support
his arguments. Its position is essentially that SWIDA
requires this Court to hold that this taking violates
Article I, Section 5 of the Illinois Constitution, without
further proof.1 Ill. Const. 1970, art. I, § 15.
Upon close examination of the Supreme Court’s
opinion in SWIDA, the Court has concluded that the
case does not stand for the broad propositions that
Defendant asserts. Although the Supreme Court found
the taking in that case to be invalid, it did not employ
1

Defendant’s traverse challenges the taking under the Fifth
and Fourteenth Amendment to the United States Constitution
and the Illinois Constitution’s takings clause. The arguments,
however, have been confined to the public use requirement under
the Illinois takings clause.

85a
“a bright-line test” to determine whether the public
was the primary beneficiary of the taking. SWIDA, 199
Ill. 2d at 240. Although it did not adopt the notion
that the line between “public use” and “public purpose”
had been totally obliterated, it used the terms interchangeably in many places in the opinion.
Additionally, it adhered to the established concept
that “[t]he term “public purpose’ is not a static concept.
It is flexible, and is capable of expansion to meet
conditions of a complex society that were not within
the contemplation of the framers of our constitution.”‘
Id. at 237 (quoting People ex rel. Adamowski v.
Chicago R.R. Terminal Authority, 14 Ill. 2d 230, 236,
151 N.E.2d 311 (1958)). It reaffirmed that economic
development is an important public purpose and that
the taking of slums and blighted areas for purposes of
redevelopment is a public use regardless of the
subsequent use of the property. SWIDA,199 Ill. 2d at
238-39.
With respect to a court’s reviewing role, the
Supreme Court recognized the universally-accepted
rule that “‘whether a given use is a public use is a
judicial function.’” Id. at 237 (quoting People ex rel
Tuohy, 394 I11 at 481). It did not, however, sway from
the traditional principle that “[g]reat deference should
be afforded the legislature and its granting of eminent
domain authority.” SWIDA, 199 III. 2d at 236.
In this Court’s view, there were two determinative
factors that led the. Supreme Court to invalidate the
taking in SWIDA. First, the real purpose of the taking,
as established by the facts, was to benefit Gateway, a
private party. Significantly, the Court equated this
taking with the one in Limits Industrial R.R. Co. v.
American Spiral Pipe Works, 321 Ill. 101, 110, 151
N.E. 567 (1926), wherein the Court characterized the

86a
taking as a “subterfuge to give color of right to the
attempt to condemn land.” In both cases, the evidence
revealed private transactions preceding the decision to
condemn the property that made the articulated
purpose of the taking suspicious. Second, in SWIDA,
the Authority’s actions “were not clothed in an independent legitimate governmental decision to further a
planned public use.” 199 Ill. 2d at 240. The Authority
did not conduct a thorough study of the parking
situation, formulate an economic plan identifying the
parking needs of the area, or circumscribe the amount
of land required to be taken. These two factors are not
present on this record.
While the City entered into an agreement with
Bloomer Chocolate for the intended expansion of its
business in the River West Redevelopment Project
Area in February 2006, no facts akin to those in
SWIDA or Limits Industrial Railroad have been
shown. All that is present here is that the City entered
into an agreement with Bloomer Chocolate several
years after the Plan, TIF designation, and taking
ordinances were duly enacted by the City Council. In
short, this case is consistent with a long line of
authority that holds that there is no constitutional
prohibition against using public funds in a manner
that provides benefits to private interests, as long as
the money is used for a public purpose. People ex rel.
City of Canton v. Crouch, 79 M. 2d 356, 368, 403
N.E.2d 242 (1980); People ex rel. City of Urbana v.
Paley, 68 111. 2d 62, 368 N.E.2d 915 (1977); City of
Chicago v. Boulevard Bank National Ass ‘n, 293 Ill.
App. 3d 767, 688 N.E.2d 844 (1st Dist. 1997); Vill. of
Wheeling v. Exchange Nat’l Bank of Chicago, 213 Ill.
App. 3d 325, 332, 572 N.E.2d 966 (1st Dist. 1991).

87a
Furthermore, unlike the deficient economic and
planning process in SWIDA, there was a comprehensive plan for the River West Tax Increment Financing
Redevelopment Project with delineated goals and
objectives. The City’s Plan enumerates its specific
goals and objectives. The City investigated the Area
prior to determining that it qualified as a conservation
area pursuant to the Act. JOP, 49944. According to the
City’s Plan, 91 of 103 buildings in the Area were 35
years of age or older and five of 13 of the Act’s
qualifying factors were satisfied. JOP, 49944. These
factors included: deterioration of structures and
surface improvements; presence of structures below
minimum code standards; excessive vacancies; lack of
community planning; and lag in growth of equalized
assessed value. JOP, 49944-45.
In addition, the City adhered to statutory requirements in holding a public hearing, providing notice to
taxpayers, and making relevant plans and documents
available to the public. Aided with the Plan for the
project area, the City then passed various ordinances
in keeping with the statutory criteria of the Act. All of
these factors legitimized the City’s governmental
decision to acquire the subject property, a crucial
component missing from the taking process in SWIDA.
The Court finds nothing in the authority cited that
would permit this Court to apply the rule that
Defendant proposes, that in the context of economic
redevelopment, “public use” under the Illinois Constitution permits the use of eminent domain only for
purposes of clearing blight and slums and then only in
“true” cases of blight and slums, not as the term blight
is defined by the redevelopment and TIF statutes. As
stated above, the notion that the legislature has broad

88a
authority to define a public purpose was unaltered by
the Supreme Court in SWIDA.
In the face of challenges on public purpose or use
grounds in connection with economic redevelopment
programs, courts have consistently upheld the taking
where the evidence satisfied statutory criteria. See,
e.g., Chicago v. Boulevard Bank, 293 Ill. App. 3d 767;
Wheeling v. Exchange Nat’l Bank, 213 Ill. App. 3d 325;
City of Chicago v. Gorham, 80 Ill. App. 3d 496, 400
N.E.2d 42 (1st Dist. 1980). In fact, the Appellate Court
has found, in connection with a redevelopment plan of
a downtown Chicago block, that “clearance and
redevelopment of blighted commercial areas as well as
residential slums satisfies a public purpose.” Chicago
v. Gorham, 80 Ill. App. 3d at 499 (citing People ex rel.
City of Urbana, 68 Ill. 2d 62), wherein the Supreme
Court found economic revitalization of Urbana’s
downtown to be a public purpose).
To the extent that Defendant distinguishes these
cases on their facts, no facts have been presented to
challenge the CDC and City Council’s findings. To the
extent that Defendant argues that all cases that the
City cites involved blight, not a conservation area, the
Court does not accept Defendant’s narrow reading of
the higher courts’ decisions. Indeed, a reading of those
cases persuades the Court that no basis exists to
require a showing of blight and slums alone to
establish a public use as required by the Illinois
Constitution in this context.
In this case, the Plan and Project anticipated
various benefits to the public, ranging from the
construction of public improvements, like utilities, to
the replacement of blight and vacated properties with
new developments. JOP, 49914. In general, the plan
was intended to conserve a commercial and industrial

89a
area. Specifically, it was intended to preserve diminishing confectionary manufacturing businesses in
Chicago, in the hope of creating additional industrial
jobs, securing existing jobs, and expanding the tax
base. No contrary evidence refutes the City’s contention that the agreement with Bloomer Chocolate
requires that company to improve and to use the
property in conformance with the purposes of the Plan.
The new configuration of the area is designed to cure
traffic problems by providing additional space for
truck loading and delivery. Given these factors, the
Plan encompasses proper public uses and, on its face,
contains no suggestion that Blommer Chocolate is the
primary beneficiary of the redevelopment project,
rather than the public in general.
Finally, the Court finds no reason to grant the
traverse on the basis of the disparity between the
language of the June 2002 ordinance and that of the
plan and the January 2001 ordinance. It is possible
that the City Council used the term “commercially
blighted area” because that was the language previously used in the Municipal Code of Chicago for
designating an economic redevelopment area. See
Chicago v. Gorham, 80 Ill. App. 3d at 497 (citing
Municipal Code of Chicago (1977), ch. 15.1, § 15.1 —
1(d)). Significantly, the definition provided in that
ordinance included the same kinds of factors that go
into the definition of blight and conservation area in
the current Act. Nonetheless, whether the discrepancy
results from a scrivener’s error, as the City contends,
or is the result of the City Council’s looser construction
of the term “blight” is not material to the issue
presented. The City concedes that the area is not
blighted, and the Plan and other ordinances make
clear that the area is a conservation, not blighted,
area.

90a
The critical issues is the one the Court has discussed
above. As stated previously, the Court finds no legal
basis to conclude that the use of eminent domain for
economic redevelopment must be predicated on a
finding of blight alone. The cases by which this Court
is bound establish that a legislative judgment that
eliminating conditions that verge on blight is a proper
public purpose. Given that being designated as either
a blighted area or a conservation area is sufficient to
qualify as a redevelopment project area under the Act,
and given that the designation of a conservation area
is less exacting with regard to the features that must
be present to satisfy the statute, the inconsistent
language in the acquisition ordinance is not sufficient
to hold invalid the City’s exercise of its condemnation
authority. In short, the Plan, approval ordinance, and
designation ordinance all relied upon the Area’s
classification as a conservation area, which, taken
together, provide a basis for use of the City’s
condemning authority on this record.
As the Court was about to issue this Memorandum
Decision and Order, it received Defendant’s motion to
cite a decision of the Ohio Supreme Court, City of
Norwood v. Homey, Ohio St. 3d, 2006-Ohio 3799 (Ohio
Supreme Court, July 26, 2006), as supplemental
authority. In preparing this Order, the Court had read
and considered the case when doing its own research.
While the Ohio decision is similar in its analysis to
County of Wayne v. Hathcock, 471 Mich. 445, 684
N.E.2d 765 (2004), for the reasons stated previously,
the Court is not persuaded that it is consistent with
our Supreme Court’s decisions in SWIDA in particular
and other controlling Illinois precedent in general.
For all the reasons stated, the Court finds that the
City put on sufficient evidence to establish its

91a
authority to take the property in question. No other
evidence refutes the City prima facie case. Accordingly, the City has met its burden. The traverse is
denied.
IT IS THEREFORE ORDERED:
1. The Defendant’s traverse is denied.
2. The case is set for status on further proceedings and Defendant’s motion to cite supplemental authority on August 29, 2006.
Date: Aug. 21, 2006

ENTERED:
/s/ Rita M. Novak 1741
Rita M. Novak
Associate Judge
[STAMP]
JUDGE RITA M. NOVAK
AUG 21 2006
Circuit Court-1741

92a
APPENDIX G
IN THE
SUPREME COURT
OF ILLINOIS
————
No.
————
CITY OF CHICAGO, a municipal corporation,
Plaintiff-Appellee-Respondent,
v.
FRED J. EYCHANER and UNKNOWN OWNERS,
Defendant-Appellant-Petitioner.
————
Petition for Leave to Appeal from the
Appellate Court of Illinois,
First Judicial District,
No. 1-19-1053
————
There Heard on Appeal from the
Circuit Court of Cook County,
No. 05 L 050792,
Hon. Rita M. Novak and Hon. James M. McGing,
Judges Presiding.
————
PETITION FOR LEAVE TO APPEAL
OF FRED EYCHANER
————

93a
Thomas F. Geselbracht
Elizabeth L. Butler
DLA PIPER LLP (US)
444 West Lake Street, Suite 900
Chicago, Illinois 60606-0089
(312) 368-4094
Thomas.Geselbacht@US.DLAPiper.com
Elizabeth.Butler@US.DLAPiper.com
Counsel for DefendantAppellant-Petitioner Fred Eychaner
E-FILED
6/12/2020 4:19 PM
Carolyn Taft Grosboll
SUPREME COURT CLERK
————

94a
I.
PRAYER FOR RELIEF
Plaintiff-Appellant-Petitioner Fred Eychaner, pursuant to Illinois Supreme Court Rule 315, respectfully
requests the Illinois Supreme Court to grant leave to
appeal from the decisions of the Illinois Appellate
Court, First Judicial District.
II.
JUDGMENT BELOW
There are two Appellate Court opinions in this case.
The City of Chicago is taking Fred Eychaner’s land,
which is neither blighted nor a slum, to give it to his
neighbor Blommer Chocolate Company,1 in the name
of economic development. Eychaner’s Traverse challenging the constitutional basis for the taking was
denied in 2006. After a jury trial on just compensation,
the Appellate Court affirmed the denial in No. 1-131833 on January 21, 2015, holding that the taking was
not for Blommer Chocolate’s private benefit, but
instead that preventing future blight was a proper
public use. City of Chicago v. Eychaner, 2015 IL App
(1st) 131833 (“Eychaner I”). However, the Appellate
Court also reversed for a new trial on just compensation. After the second jury trial, Eychaner moved for
reconsideration of the denial of the Traverse, both to
seek further judicial review of the Appellate Court’s
earlier ruling and because the City had changed the
economic development plan on which the taking was

1

During the course of this case, Blommer Chocolate Company
was sold to Fuji Oil Holdings, Inc. of Osaka, Japan, for approximately $750 million. (C. 8248) For clarity and consistency, references remain to “Blommer” or “Blommer Chocolate.”

95a
pretextually based. On May 11, 2020, the Appellate
Court again affirmed in No. 1-19-1053 (“Eychaner II”).
III.
POINTS RELIED UPON FOR REVERSAL
OF THE APPELLATE COURT
1. Leave to appeal should be granted to resolve the
conflict with the holding of the Illinois Supreme Court
in Southwestern Illinois Dev. Auth. v. National City
Environmental, LLC, 199 Ill.2d 225 (2002) (“SWIDA”).
2. Leave to appeal should be granted because the
prevention of future blight is too speculative a justification to constitute a proper public use or purpose for
the taking of private property from one individual to
give to another. To the extent SWIDA or Kelo v. City
of New London, 545 U.S. 469 (2005) (“Kelo”), permit
such takings, SWIDA should be overruled and Kelo
lacks clarity, has been significantly criticized, and is
inconsistent with prior U.S. Supreme Court precedent.
3. Leave to appeal should be granted because the
City’s stated purpose for the taking was pretextual,
where the actual purpose of giving Eychaner’s nonblighted land to Blommer Chocolate Company was
determined before an economic development plan was
adopted, and then where the City changed its plan
from industrial retention to office and residential redevelopment before the taking was ever accomplished.
IV.
STATEMENT OF FACTS
This is an eminent domain case in which private
property is being taken from one private individual to
give it to another. The facts are undisputed:



96a
Defendant Fred Eychaner’s property is a
vacant parcel of 25,440 square feet at the
southwest corner of Grand and Jefferson in
Chicago, Illinois, located just to the north of
the Blommer Chocolate factory. (C. 114)



The City of Chicago has not found or determined the Eychaner property to be blighted, or
a slum. (C. 121, 124)



On August 24, 2005, the City filed this eminent
domain proceeding to acquire all of the
Eychaner property. (C. 74-81) According to the
City,

The City will obtain title to the subject property through the condemnation lawsuit. The
property will be sold to Blommer Chocolate
Company after its acquisition in accordance
with the Redevelopment Agreement and the
Agreement for the Sale and Redevelopment of
Land between the parties pursuant to City
Council authorization.
(C. 123) Aerial photographs of the immediate area are
at C. 5528-31, 7563, 7566, 8322.
The Project for Which the Property is Being Taken
In 1999, the City of Chicago was working to create a
new Planned Manufacturing zoning district (“PMD”)
to protect the Tribune Company’s printing plant. (C.
1139) The new PMD was proposed to encompass
not only the Tribune plant but also the Blommer
Chocolate factory. (C. 1142-48) The change to PMD
zoning, based on a planning study funded by the
Tribune Company, was part of a concerted effort by the
City to block the trend of residential development from
“threatening” manufacturing jobs. (C. 734-35, 756-61;

97a
see also C. 910) It would include setting up a tax
increment financing (“TIF”) redevelopment district to
create incentives for industrial users to remain. (C.
758, 767)
Blommer had other concerns. As the trend of
development in the area turned from industrial to
residential, Blommer had opposed nearby zoning
changes to residential because it was concerned about
complaints from residents about its operation. (C. 731)
If residential uses were developed on adjoining properties, the environmental standards Blommer faced
might become more stringent. This threatened dire
consequences, including that Blommer might not be
able to continue its operations in Chicago. (C. 1061-62)
On February 21, 2000, Blommer Chocolate officially
expressed its opposition to the proposed PMD zoning.
(Sup. C. 23-25) Blommer would try to make its
operations more friendly to new residential neighbors,
but was concerned that some would find the chocolate
manufacturing operations intolerable. “If this were to
happen, it is possible that the best solution for
Blommer, and frankly, for the City, would be that
Blommer relocate.” (Sup. C. 24) And Blommer was
looking to the day when it might then have to sell –
“not being included in the proposed PMD would
provide us with some flexibility in finding another
use for the property.” (Sup. C. 25; see also Eychaner I,
¶¶ 11-13)
At a public hearing on the proposed PMD,
Blommer’s president said that PMD zoning would
keep Blommer from achieving “full value” when it
came time to sell its land. (C. 864-67) The local
alderman, Walter Burnett, conceded that there would
be an adverse effect on Blommer. (C. 938) Ald. Burton
Natarus agreed that Blommer posed “a very, very

98a
serious problem,” and both he and the Plan Commission chair urged the City’s planning commissioner to
meet with Blommer and “work something out.” (C.
867-70, 941-44) Ald. Natarus was emphatic: “You can’t
leave. I won’t let you leave.” (C. 870)
Blommer’s opposition to the PMD was a political
bombshell. The Plan Commission deferred action on
the proposed PMD (C. 951-56), while the local press
ran stories about Blommer’s opposition (C. 959, 96267). The developer of Kinzie Station, four new
residential towers to be located across the street south
of Blommer Chocolate, intervened to try to obtain
Blommer’s support. (C. 738) At a March 27, 2000,
meeting, the City and Blommer began to hammer out
a resolution. Blommer Chocolate again conceded that
the underlying issue was the PMD’s effect on the value
of Blommer’s property, and countered by proposing
City assistance to expand Blommer’s industrial
campus, including by acquiring adjoining land. (C.
1187) In a letter from the planning commissioner
after the meeting, the City expressed its commitment
to create a TIF district to finance infrastructure
improvements and land acquisitions, but the quid pro
quo was explicit: “Your public support for [the PMD
zoning] is crucial in getting this measure through the
legislative process.” (C. 1200) Blommer understood
that the Eychaner property was to be included in the
potential acquisitions. (C. 739)
Blommer’s site plan for its proposed industrial
campus expansion designated the Eychaner property
to be acquired by the City and used for “Extended New
Employee Parking.” (C. 1204) The Blommer proposal
specifically called for the City to reimburse it for the
acquisition of the Eychaner property. (C. 1358, 1375)
On June 19, 2000, Blommer formally stated what it

99a
would take to drop its opposition to the PMD, despite
its concern that being included in the PMD would
eventually require Blommer to sell its property at a
substantial discount. (C. 1310-11) Blommer summarized its assessment of a “win/win situation for the
parties involved” – approval of the PMD for the
Tribune Company and the City; approval of zoning for
Kinzie Station; and expansion of Blommer Chocolate’s
industrial campus. (C. 1311-12) Property acquisition
for Blommer was explicit – including the Eychaner
property, which along with two others “would be
deeded to Blommer for $1”. (C. 1313)
When the Plan Commission took up the PMD zoning
again on August 17, 2000, it was supported by the
Tribune Company (C. 1037), and the developer of
Kinzie Station (C. 987, 1044, 1055). Fred Eychaner,
owner of the subject property, opposed the PMD (C.
989-90), but Blommer dropped its opposition because
of the City’s promises (C. 1014). The Plan Commission
recommended approval. (C. 1052)
To follow up on its commitments to Blommer
Chocolate in the “land for PMD” deal, on September
27, 2000, the Chicago City Council formally approved
the PMD, changing the zoning of the Eychaner property from M2-5 to PMD-5. (C. 1175-83) On January 10,
2001, the City Council designated the River West Tax
Increment Financing Redevelopment Project Area and
approved the River West Tax Increment Financing
Redevelopment Plan (“River West TIF Plan”) under
the Tax Increment Allocation Redevelopment Act, 65
ILCS 5/11-74.4-1 et seq. (2000) (the “TIF Act”). (C. 197296)
The TIF Act authorizes two kinds of redevelopment
areas. A “blighted area” contains to a meaningful
extent a threshold level of blighting factors reasonably

100a
distributed throughout the project area. 65 ILCS 5/1174.4-3(a) (2000). A “conservation area” also contains
blighting factors, but not in the intensity or concentration of a “blighted area,” such that designation as a
“conservation area” means that an area is “not yet a
blighted area” but “may become a blighted area.” 65
ILCS 5/11-74.4-3(b) (2000). The River West TIF Plan,
“intended to provide the financial mechanism necessary to implement the goals and objectives of [the]
P.M.D” (C. 1215), designated the project area including Eychaner’s land only as a “conservation area.” (C.
104, 109, 211, 261)
Designating a redevelopment area and adopting a
redevelopment plan under the TIF Act gives a municipality three tools. First is the ability to undertake
public financing of redevelopment projects in the
redevelopment area. 65 ILCS 5/11-74.4-8 (2000). On
January 10, 2001, the City Council adopted tax increment financing for the River West TIF Redevelopment
Project Area. (C. 287-93) Second is the ability to use
eminent domain to acquire property. 65 ILCS 5/1174.4-4(c) (2000). By ordinance on June 19, 2002, the
City Council authorized the eminent domain acquisition of the Eychaner property. (C. 294-96) Third is
the ability to enter into redevelopment agreements
consistent with the TIF redevelopment plan. 65
ILCS 5/11-74.4-4(b)(2000). The City Council eventually approved a TIF redevelopment agreement with
Blommer Chocolate on February 8, 2006, including
conveyance of the Eychaner property to Blommer,
and its inclusion in the expanded Blommer industrial
campus. (C. 1480)
The result of this “unified, comprehensive solution”
was a “win-win situation.” (C. 750) According to
Blommer’s Jack Larsen, it was a “collective effort,”

101a
which included the Kinzie Station re-zoning, the PMD
re-zoning, the TIF district and the Blommer Chocolate
industrial campus expansion and associated acquisitions. (C. 749-50) Eychaner I found, “[T]he City conceived of the PMD [zoning including the subject
property] and River West TIF as part of an economic
revitalization plan. . . . The record indicates that the
creation of the PMD, the River West TIF, and the
taking of Eychaner’s land were all a single project.”
Eychaner I, ¶¶ 77, 90.
The Eminent Domain Suit
On February 21, 2002, Blommer Chocolate’s real
estate broker made a private offer to acquire the
Eychaner property, because that was how the City
wanted to handle it. (C. 747, 1426-31) When nothing
came of the private offer, the City advised Mr.
Eychaner on April 26, 2002, that it would seek
authority to acquire the subject property. (C. 1434) On
August 24, 2005, the City filed this eminent domain
suit. (C. 74)
Eychaner filed a Traverse challenging the City’s
authority to use eminent domain as violating both the
state and federal constitutions. (C. 135) On August 21,
2006, Judge Rita M. Novak issued a Memorandum
Decision and Order denying defendant’s Traverse and
sustaining the City’s Complaint to Condemn. (C. 382)
Upon defendant’s motion, and over the City’s objection, Judge Novak certified her order denying the
Traverse for immediate, interlocutory appeal (C. 642),
but the Appellate Court denied Eychaner’s Rule 308
Application for Leave to Appeal (C. 661).
The case then proceeded to jury trial, which
returned a verdict of just compensation totaling $2.5

102a
million. (C. 5467) Defendant appealed.2 On January
21, 2015, the Appellate Court affirmed the denial of
the Traverse, but otherwise reversed the judgment
and remanded for a new trial on just compensation.
Eychaner I. Upon remand, a second jury trial was held
before Judge James M. McGing. It resulted in a verdict
of $7.1 million. (C. 7519) Defendant’s Post-Trial
Motion acknowledged that defendant was bound by
the 2015 Appellate Court ruling affirming the denial
of the Traverse, but raised the state and federal
takings issues to preserve them for further review
beyond the Appellate Court. (C. 7588-90) Then, building on evidence that emerged at the second jury trial
on just compensation, the Post-Trial Motion sought
rehearing of the City’s authority to take, based on the
changed circumstances of the City’s adoption of a new
approach, policy and plan for economic redevelopment
of the area that includes the property. (C. 7590-7600)
The Significance of the Plan, and
the City’s Change of Plan
Relying on People ex rel. Gutknecht v. City of
Chicago, 3 Ill.2d 539 (1954), the Appellate Court in
2

The City deposited the $2,500,000 first jury verdict, plus
interest, with the Treasurer of Cook County on February 27,
2013. (C. 5580-81) Because defendant appealed the City’s authority to use eminent domain to take his property, Eychaner made
no attempt to collect the condemnation award. Because the same
issue of the City’s authority to use eminent domain is raised on
this appeal, those funds remain on deposit with the Treasurer
today. After the second jury trial, rather than deposit additional
funds to increase the deposit to equal the amount of just compensation determined by the second jury, the City moved to stay
enforcement of the Final Judgment Order. (C. 8356) That motion
was granted (C. 8372), so the City has not yet paid the full
amount of just compensation. The property has therefore not yet
been taken.

103a
Eychaner I held in 2015 that, even where the property
is neither blighted nor a slum, like here, “the
government may use the power of eminent domain to
prevent future blight in a conservation area such as
the River West TIF.” Eychaner I, at ¶ 69 (emphasis
added). The Appellate Court distinguished SWIDA
and followed Gutknecht based on the existence here of
the River West TIF Plan – “a well-developed, publicly
vetted, and thoughtful economic development plan.”
Eychaner I, at ¶ 71-74.
Thus, the use of eminent domain to expand
Blommer’s campus passes constitutional
muster because it aligns with the City’s
economic development plan to retain existing
industry, prevent conflicts between residential and industrial use, and promote investment and revitalization in a conservation
area.
Id. at ¶ 78. The decision also relied upon Kelo to
emphasize that, in the ordinary course, courts “defer
to the [government]’s exercise of [the taking] powers.”
Id. at ¶ 70; id. at ¶ 63 (noting that its decision was
“[g]uided by SWIDA, Gutknecht and Kelo.”)
Before the second jury trial, however, the City
changed its plan. Chicago has no comprehensive plan,
but periodically the City does prepare partial planning
documents for certain areas. (C. 8267, 8312) In the
late 1980s and early 1990s, PMDs were developed as
a zoning tool to combat displacement of industrial
areas from encroaching residential uses by prohibiting
residential and most retail uses within PMDs. (C.
8078) The City established PMD-5, including Eychaner’s
property, to further its then-goal to protect and preserve industrial and manufacturing uses in River
West, historically one of a select set of industrial areas

104a
in the City. (C. 7609, 7680-81; see expression of City’s
industrial retention policy at C. 1176-77; see also
Eychaner I, ¶ 20)
In conjunction with PMD-5, the City established the
River West TIF. It reiterated the City’s broader objectives with regard to industrial retention, noting an
inherent incompatibility between new residents and
existing industry that could work to push the industrial users out, due to the rise in land values and
property taxes, the incentive to sell to high-bidding
residential developers, and the increase in complaints
from neighboring residents. The City deemed it
critical then to protect and enhance the remaining
industrial areas. (C. 7609; see also Eychaner I, ¶ 22)
The River West TIF Plan was to provide the financial
mechanism, plus the use of eminent domain, to implement the goals and objectives of PMD-5. (C. 7681)
However, in the almost 20 years since the River
West TIF Plan was adopted, the City has substantially
revised its planning for the area, in keeping with the
trend of development toward office and multi-family
high-rise residential. (C. 8290; R. 2649) In 2016,
Mayor Rahm Emanuel announced new goals and a
change in direction. (C. 8291; R. 2653-54) A City study
of the 700-acre North Branch Industrial Corridor,
including the Eychaner property, found that, between
1990 and 2016, manufacturing uses in that area
decreased from 73 percent to 20 percent (C. 8291-92,
R. 2656-59), and manufacturing jobs decreased by 40
percent (C. 8112). Recognizing that PMD zoning was
outmoded and not in alignment with current land
uses and employment trends for the area, the Plan
Commission adopted the North Branch Industrial
Corridor Framework Plan (the “North Branch Plan”)

105a
on May 18, 2017 (C. 8208), nearly 12 years after this
suit was filed.
The North Branch Plan – one of Chicago’s area, but
not comprehensive, plans (C. 8267; R. 2528) – recommended eliminating or reducing PMD zoning to more
accurately accommodate existing and projected
market demands, including an ongoing shift from
traditional manufacturing towards high-tech offices
and other uses. (C. 8079) The North Branch Plan also
established modern land use parameters to assess
future development proposals and land use transitions
in the North Branch Industrial Corridor – including
the subject property – to mixed-use, commercial, retail
and residential projects. (C. 8078)
Implementing the City’s New Plan
On July 26, 2017, the City Council adopted an ordinance to implement the North Branch Plan to accommodate mixed-use growth within the North Branch
and River West areas while generating funds to
relocate industrial uses to other locations in the City
(the “Implementation Ordinance”). (C. 8207) The
Implementation Ordinance rezoned the northern and
southern portions of the North Branch Corridor,
thereby eliminating the PMD in those areas. (C. 824147) The southern portion, encompassing the Blommer
Chocolate redevelopment area and the Eychaner property, was re-zoned from PMD to Downtown Service
District. (C. 8246, 8292; R. 2660)
Rather than preserving existing industrial uses,
the Implementation Ordinance provided incentives to
relocate industrial users out of the North Branch
Corridor to other “receiving” industrial corridors in
the City. It established both the Industrial Corridor
System Fund, and “conversion areas” in former PMD

106a
districts. (C. 8208) Any rezoning in a conversion area
now requires payment of a conversion fee to the
Corridor Fund. (C. 8209) However, industrial users
who undertake to relocate their existing facilities from
conversion areas to replacement sites in certain
receiving corridors are exempted from paying the
conversion fee to the City; instead, they may actually
receive money from the Corridor Fund as an incentive
for such relocation. (C. 8211-12)
The new North Branch Plan is consistent with the
multi-million dollar trend of development in River
West, since this suit was filed, from manufacturing to
mid-rise or high-rise residential uses. “[T]hings have
changed dramatically here in the past 10 or 15 or 20
years.” (C. 8286; R. 2633-34; see also C. 8323 (showing
zoning changes away from manufacturing between
1960 and 2018)) Kinzie Park to the east was developed
beginning in 2001 and includes a high-rise multifamily structure, a mid-rise multi-family building, and
townhomes. (C. 8283, 8290; R. 2623, 2650) Kinzie
Station to the south represents even more significant
private investment in residential development of former manufacturing property – four luxury high-rise
towers containing over 1,600 dwelling units which
began construction in 2003. (C. 8282, 8284, 8297,
8310; R. 2619, 2625, 2678, 2732) “There has been a
significant renaissance of a whole new look of development.” (C. 8286; R. 2633-34; see also aerial photograph
of subject property, Kinzie Park and Kinzie Station at
C. 8322)
The new developments have been matched by an
increase in the value of real estate. For example, the
first jury set the value of the subject property as of
August 24, 2005, at $2.5 million. (C. 5467) On remand,
the Circuit Court granted a new valuation date,

107a
holding: “The real estate market and the value of the
condemned property changed substantially [from 2005
to 2016].” (C. 6262) The parties later stipulated to yet
another new valuation date of March 7, 2018 (C. 6844),
and both presented valuation theories to the second
jury premised on a highest and best use of the property
as high-rise residential. That jury set the fair cash
market value as of March 7, 2018, at $7.1 million. (C.
7519)
Meeting this rise in values, the City in 2017 and
2018 authorized a mega-development dubbed the
“River District” on the Tribune Company’s land immediately north of the subject property across Grand
Avenue. (C. 8285, 8292-96; R. 2629, 2660-74) A 7-acre
tract was rezoned to allow up to 310 residential units
and 1,546,385 square feet of office and retail. (C. 8320)
Between that tract and the subject property, a 30-acre
campus was rezoned to allow up to 4,099 residential
dwelling units and 8,474,692 square feet of office and
retail. This area includes the Tribune printing plant,
the protection of which was the original impetus for
the single, unified project as part of which the property
is being taken. Eychaner I, ¶¶ 77, 90.
Thus, the City itself has recognized that today,
contrary to when the River West TIF Plan was adopted
in 2001, private investment, and private development,
abounds in the area. As a certified land planner testified at the second just compensation trial:
The bottom line is, the area has gentrified,
rejuvenated from a manufacturing core to
a very high-end residential area, and the
change has been significant. All of that’s well
expressed in the City’s own plans in their
North Branch Industrial Corridor Study. (C.
8297; R. 2679)

108a
Despite the change in plan, Judge McGing denied
defendant’s Post-Trial Motion in a written Opinion
and Order on April 24, 2019. (C. 8374) Defendant
appealed, but the Appellate Court affirmed on May 11,
2020. Eychaner II.
V.
ARGUMENT
I. LEAVE TO APPEAL SHOULD BE GRANTED
TO RESOLVE THE CONFLICT WITH THIS
COURT’S HOLDING IN SWIDA.
In SWIDA, this Court held that private property
may not be taken by eminent domain from one individual to give to another private party simply to spur
economic development, unless the property is blighted
or a slum. 199 Ill.2d at 238. On this point, SWIDA
specifically observed that eminent domain must be
used “with restraint, not abandon” (id. at 242), and
that eminent domain is subject to a strict requirement
that the property be taken for “public use” (id. at 238).
From the very beginning of this case, the conflict
with SWIDA has been clear and acknowledged. In
denying Eychaner’s Traverse, Judge Novak certified
for immediate appeal, stating that the issue of the
City’s authority to acquire the non-blighted property
by eminent domain is “well-defined” here and “nearly
a pure question of law.” She stated, “The import, scope
and meaning of the Illinois Supreme Court’s decision
in [SWIDA] give valid grounds for disagreement as to
the question of law.” (C. 642-43)
When the Appellate Court finally reached the issue
in 2015, it improperly relied on Gutknecht to create an
unwarranted exception to SWIDA. Since the SWIDA
decision, most condemnation cases in which a chal-

109a
lenge has been raised to the use of eminent domain for
economic redevelopment have been diverted to the
issue of whether the “slum or blight” exception to the
public use requirement – as recognized in SWIDA (199
Ill.2d at 238) – applies. See, e.g., Southwestern Illinois
Dev. Auth. v. Al-Muhajirum, 318 Ill. App. 3d 1005,
1009 (5th Dist. 2001) (blight exception applied to
“virtually uninhabitable” property, located “in the
heart of a blighted area,” that included “unoccupied
and unattended slums”).
That could not be done here, because the “conservation area” in which the Eychaner property is located
is by statutory definition neither blighted nor a
slum. See 65 ILCS 5/11-74.4-3(b) (2000). Instead, the
Appellate Court reached back to Gutknecht, a preSWIDA decision, to extend the “slum or blight”
exception to a taking to prevent “future blight” where
the taking is supported by a “well-developed, publicly
vetted, and thoughtful economic development plan.”
See Eychaner I, at ¶¶ 69-78. In relying on Gutknecht,
the Appellate Court here took the same position that
the government agency had taken before the Illinois
Supreme Court in SWIDA. That agency too relied on
Gutknecht (199 Ill.2d at 237), as did Justice Freeman
in his SWIDA dissent (199 Ill.2d at 261). But SWIDA
did not include prevention of future blight as a proper
public use. See 199 Ill.2d at 238. Nor did the SWIDA
majority rely on Gutknecht (other than to cite it for the
wholly conventional proposition that public purpose is
not a static concept, see 199 Ill.2d at 237).
SWIDA’s majority opinion, not Justice Freeman’s
dissent, is the law. Ellguth v. Blackstone Hotel, Inc.,
408 Ill. 343, 347 (1951). If SWIDA bars takings
for mere economic development, with an exception
only for eliminating actual slums and blight, then

110a
Gutknecht’s comment that takings may prevent blight,
where as of yet there is no blight, must be of dubious
continued validity. This Court should grant leave to
appeal to overrule the Appellate Court 2015 decision3
in order to restore the SWIDA rule that, while eminent
domain may be used to eliminate slums and blight, it
may not be used in the name of economic development
for a naked transfer of private property from one
private party to another.
II. LEAVE TO APPEAL SHOULD BE GRANTED
TO BAR TAKINGS TO PREVENT FUTURE
BLIGHT, AND SWIDA OR KELO MAY NOT
PERMIT A DIFFERENT RESULT.
Kelo held that eminent domain may be used in the
name of economic development even though it confers
a substantial private benefit. In addition to Gutknecht,
the Appellate Court relied upon Kelo to uphold the
City’s decision to wield eminent domain here in the
name of addressing future blight, consistent with
Illinois’s “lock-step” approach to the Takings Clause.
See Hampton v. Metro. Water Reclamation Dist. of
3

This petition in 2020 for leave to appeal the Appellate Court’s
decision in 2015 is timely, because the 2015 order remanded for
a new trial on just compensation, did not dispose of all parties
and all claims, and was thus interlocutory. See People ex rel. Scott
v. Silverstein, 87 Ill.2d 167, 171 (1981). Interlocutory review is
not encouraged, and under Supreme Court Rule 318 there was no
waiver for failing to petition for discretionary leave to appeal from
the 2015 order. Returning to the Circuit Court after conclusion of
the Appellate Court’s 2015 review still preserved the right to
petition the Illinois Supreme Court for leave to appeal the 2015
decision. Rozsavolgyi v. City of Aurora, 2017 IL 121048, ¶ 36. The
City moved to dismiss this appeal as untimely, but the Appellate
Court refused, instead affirming its 2015 decision based on the
law-of-the-case doctrine (Eychaner II, at ¶¶ 32-34), as Eychaner
had requested, to pass the issue on to this Court for review.

111a
Greater Chicago, 2016 IL 119861, ¶¶ 10-16. The Appellate Court further concluded that Kelo and SWIDA
were consistent, i.e., that SWIDA permits takings in
the name of economic development to prevent future
blight.
The Appellate Court was wrong: SWIDA does not
permit such takings. But even if this Court were to
find otherwise, this case squarely demonstrates why
SWIDA to that extent should be overturned and why
Kelo was wrongly decided. “Future blight” is a concept
far too subjective, speculative and broad to meaningfully restrain government power. Economic development and prevention of future blight are the opposite
sides of the same coin. Improving the economy is the
same as preventing its decline. Merely because a
city thinks that a parcel may be put to a higher or
better use is not enough to justify its taking. See
Southwestern Illinois Dev. Auth. v. National City
Environmental, LLC, 304 Ill. App. 3d 542, 552 (5th
Dist. 1999), aff’d, 199 Ill.2d 225 (2002). A municipal
plan to raise a property to a supposedly higher and
better use with a sweetheart private developer, like
the City’s plan here, extends the concept of “future
blight” as public use beyond all recognition. Other
courts are in accord. See, e.g., 99 Cents Only Stores v.
Lancaster Dev. Agency, 237 F.Supp.2d 1123, 1130-31
(C.D. Calif. 2001) (rejecting the prevention of “future
blight” as a proper public purpose to justify eminent
domain; the position that “no redevelopment site
can ever be truly free from blight because blight
remains ever latent, ready to surface at any time” is
“untenable” and “defies logic”); City of Norwood v.
Horney, 110 Ohio St.3d 353, 383-84 (2006).
To the extent Kelo gave license for such takings, it
created an unworkable rule vulnerable to being

112a
overturned. The Kelo decision is poorly reasoned, lacks
clarity, and fails to meaningfully constrain governmental action. The Takings Clause, like every other
clause in the Fifth Amendment, is intended to limit
government power. Although there are instances
where eminent domain is necessary, the presumption
– as reflected in the constitutional text – is that the
use, development, and enjoyment of private property
should belong to the property owner, not the
government.
But Kelo flips that common-sense intuition on its
head. It gives local governments virtually unbridled
authority to engage in takings, so long as they are
done in the name of economic development and supported by some kind of plan. It transformed a substantive check on government power – the public use
requirement – into a procedural checklist for government takings. That is what happened here: after the
City stated its goal of economic development and
produced an ad hoc (not even comprehensive) plan, it
had near-unfettered leave to give Eychaner’s land to
Blommer.
Kelo was subject to two strongly-worded dissents at
the time of its publication, and calls for its overruling
have only amplified since. See Gideon Kanner, Kelo v.
New London: Bad Law, Bad Policy, and Bad Judgment, 38 Urb. Law. 201 (2006). Even Justice Stevens,
the author of the Kelo majority opinion, has
acknowledged that the decision was based on incorrect
assumptions. Justice John Paul Stevens (Ret.), Kelo,
Popularity, and Substantive Due Process, 63 Ala. L.
Rev. 941, 946 (2012).
As Justice O’Connor noted in her Kelo dissent,
eliminating “future blight” is not consistent with
Supreme Court precedent prior to Kelo. Cases before

113a
Kelo limited “public purpose” to when “the targeted
property inflicted affirmative harm on society.” 545
U.S. at 500 (O’Connor, J., dissenting). The Appellate
Court should have followed that rule here. Leave to
appeal should be granted to correct this error.
III. THE
RATIONALE
OF
PREVENTING
FUTURE BLIGHT WAS PRETEXTUAL, AND
LEAVE TO APPEAL SHOULD BE GRANTED.
Even if Kelo remains in force, an exception identified
in Kelo is that a taking cannot be supported by “the
mere pretext of a public purpose, when its actual
purpose was to bestow a private benefit.” Here,
Eychaner’s land is being taken to bestow a private
benefit on Blommer. The stated rationale of preventing future blight is a post hoc pretext, and leave to
appeal should be granted consistent with Illinois
precedent and Kelo.
A taking’s actual purpose is the lodestar for
determining whether the taking is for a proper public
use. Determining whether an asserted purpose for the
taking is mere pretext is the realm of the courts.
“Unfortunately, the Kelo majority did not define the
term mere pretext.” Franco v. Nat’l Cap. Revital.
Corp., 930 A.2d 160, 172 (D.C. 2007) (internal
quotation marks omitted). Instead, Justice Kennedy’s
concurrence says a court:
. . . should strike down a taking that, by a
clear showing, is intended to favor a particular private party, with only incidental or
pretextual public benefits, just as a court . . .
must strike down a governmental classification that is clearly intended to injure a
particular class of private parties, with only
incidental or pretextual public justifications.

114a
545 U.S. at 491 (Kennedy, J., concurring). The Kelo
taking passed muster because the “identities of most
of the private beneficiaries [of the New London
redevelopment plan] were unknown at the time the
city formulated its plans.” Id. And the Appellate Court
did recognize the possibility of pretext here, but
rejected it based on the existence of the City’s plan to
preserve industrial uses. Eychaner I, at ¶ 70-72.
But this case is precisely the opposite of Kelo. The
identify of the private beneficiary of the taking here –
Blommer Chocolate – was not unknown before the
plan supposedly to combat future blight and preserve
the existing industrial use was adopted. Instead, the
benefit to Blommer was part of the whole deal. The
Appellate Court’s statement that the “land for PMD
deal” was not the impetus behind both the PMD and
the River West TIF Plan (id., at ¶ 77) is contradicted
by its own holding that they, plus the taking from
Eychaner and the giving to Blommer, were all part of
a single, unified project (id., at ¶ 90). The plan was in
fact adopted specifically to keep Blommer Chocolate
from leaving Chicago. Under these circumstances,
the speculative rationale of combatting future blight
through a pretextual, gerrymandered development
plan could not be a proper public use.
Now, even that plan has been replaced by the City
with a new plan, not to preserve industrial uses, but
to replace them with offices and residences. Public use
is determined as of the time of the taking, which here
has not yet occurred. The threat of future blight is no
longer; after almost 20 years Blommer is not failing
but has been sold to the Japanese for three-quarters of
a billion dollars. Yet still the old plan is advanced to
justify this taking. What was pretext when this case
started in 2005 cannot now be the foundation for a
taking as time, the trend of development and city

115a
plans have moved far beyond it. It is time to
acknowledge that this is a naked taking for private
benefit.
Illinois rejects eminent domain for uses that appear
proper on their face but whose true purposes are
impermissible. See Deerfield Park Dist. v. Progress
Dev. Corp., 22 Ill.2d 132 (1961) (taking to create a park
but actually to block integrated housing). So do other
states.4 When the legislative determinations are mere
pretext to cover takings for private benefit, the courts
must step in to prevent improper use of the eminent
domain. Leave to appeal should be granted to reverse
this taking and dismiss this case.

4

See, e.g., Pheasant Ridge Assocs. Ltd. P’ship v. Town of
Burlington, 506 N.E.2d 1152, 1157 (Mass. 1987) (“The public
purposes for which the site purportedly was to be taken were not
purposes for which the town intended in good faith to take and
use the property. They were selected as a device in the erroneous
belief that, as generally lawful public purposes, they would make
the taking proper.”); New England Estates, LLC v. Town of
Branford, 988 A.2d 229, 252 (Conn. 2010) (bad faith taking
violates the takings clause); Earth Management, Inc. v. Heard
County, 283 S.E.2d 455, 459-60 (Ga. 1981); County of Hawaii v.
C & J Coupe Family Ltd. P’ship, 198 P.3d 615, 647 (Haw. 2008);
Middletown Twp. v. Lands of Stone, 939 A.2d 331, 337 (Penn.
2007).

116a
VI.
CONCLUSION
For each of the foregoing reasons, the Illinois
Supreme Court should grant leave to appeal. Fred
Eychaner respectfully requests this Court to reverse
the judgment below and to order this case dismissed.
FRED EYCHANER
June 12, 2020

By: /s/ Thomas F. Geselbracht
One of His Attorneys

Thomas F. Geselbracht – ARDC No. 3124348
Elizabeth L. Butler – ARDC No. 6321862
DLA PIPER LLP (US)
444 West Lake Street, Suite 900
Chicago, Illinois 60606-0089
(312) 368-4094
Thomas.Geselbracht@US.DLAPiper.com
Elizabeth.Butler@US.DLAPiper.com
174488002.5

